<html>
<title> - CONFRONTING AL-QAEDA: UNDERSTANDING THE THREAT IN AFGHANISTAN AND BEYOND</title>
<body><pre>[Senate Hearing 111-363]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-363
 
   CONFRONTING AL-QAEDA: UNDERSTANDING THE THREAT IN AFGHANISTAN AND 
                                 BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             OCTOBER 7, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web: 
              http://www.gpoaccess.gov/congress/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
55-931                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Bergen, Peter, senior research fellow and co-director, 
  Counterterrorism Strategy Initiative, The New America 
  Foundation, Washington, DC.....................................    23

    Prepared statement...........................................    26

Grenier, Robert, former director, DCI Counterterrorist Center and 
  former CIA Station Chief in Pakistan...........................     6

Kerry, Hon. John F., U.S. Senator from Massachusetts.............     1

Lugar, Hon. Richard G., U.S. Senator from Indiana................     4

Marc Sageman, senior fellow, Foreign Policy Research Institute, 
  Washington, DC.................................................     9

    Prepared statement...........................................    11

                                 (iii)

  


   CONFRONTING AL-QAEDA: UNDERSTANDING THE THREAT IN AFGHANISTAN AND 
                                 BEYOND

                              ----------                              


                       WEDNESDAY, OCTOBER 7, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:40 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. John F. Kerry, 
Chairman of the Committee, presiding.
    Present: Senators Kerry, [presiding], Feingold, Menendez, 
Casey, Shaheen, Lugar, and Risch.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing of the Foreign Relations 
Committee will come to order.
    My apologies to all for being a little late. I had a couple 
thousand veterans, actually, on the phone simultaneously, all 
of whom have an interest in this and a couple of other issues.
    We come together today by happenstance on the eighth 
anniversary of our entry into Afghanistan. Today we begin the 
ninth year of the war in Afghanistan. If my memory serves me 
right, I think the war in Vietnam was 10 years, and it was the 
longest war in American history.
    So we are obviously in a very different kind of war from 
that. 869 Americans have died in Operation Enduring Freedom, 
220 of our British allies, and 357 from other allied nations, 
and unknown numbers of civilian causalities and of collateral 
damage.
    This is an important time for us to be reevaluating our 
strategy as we go forward. Senator Lugar and I yesterday came 
out of the White House meeting and made very clear our sense 
that it is appropriate to determine the best strategy, the best 
way forward. Before you start committing X amount of dollars, X 
number of troops, you have to know exactly what you are trying 
to achieve and what is achievable.
    This is also part of a larger challenge to all of us, which 
is the nature of this ongoing struggle against violent 
religious extremism, violent radicalized ideology, people who 
don't hesitate to take civilian lives, sometimes for the most 
nihilistic of rationales. In fact, sometimes it is very 
difficult to even wrap some kind of a legitimate description of 
the rationale around some of these acts. But this is the world 
we live in today.
    What we are going to do today is to consider the threat 
posed by al-Qaeda, specifically, in Afghanistan, Pakistan, and 
beyond, and to understand the progress that has been made 
toward our goal of disrupting, dismantling, and defeating the 
terrorist organization that attacked us on September 11th.
    This was, as everybody knows, at the center of President 
Bush's strategy in taking us into Afghanistan originally, 
together with the near unanimous consent of the United States 
Congress. and it is critical to understanding what our mission 
should be as we go forward.
    This hearing takes place at the center of this backdrop of 
a significant national debate over the future of American 
policy toward Afghanistan. And I say significant because what 
the President decides to do, and what we decide to do, either 
in consent or dissent, will be critical to the amounts of money 
that we ask Americans to pay over a long period of time. Much 
more significantly, in the light of what I said about those 
lives lost, is number of Americans who will be called on to go 
abroad and into harm's way and potentially give their lives in 
furtherance of that policy.
    So it is important for us to get this right because I dare 
say we have been down the road before where a year and a half, 
2 years, 5 years later, we wind up a Nation deeply divided and 
debating after the fact why we don't like being where we are or 
how we got there. So this is the time, and the stakes are high.
    The specter of a reenergized al-Qaeda safe haven in 
Afghanistan, I believe, is real. You have to have several 
scenarios to make that happen, and we are duty bound to examine 
those scenarios. And the reality of a worrisome al-Qaeda 
presence in Pakistan is existent and significant in that 
discussion.
    As I have said before, the history of past wars has taught 
us to question our assumptions at every turn in order to ensure 
that conventional wisdom doesn't harden into dogma. I have also 
said repeatedly that wars and history don't repeat themselves 
exactly. There are lessons that you can draw from them and that 
we should draw from them.
    But just because something happened a certain way 35 or 40 
years ago doesn't mean it is going to happen the same way or 
that the circumstances are the same today. So we have to be 
discerning in drawing the similarities, in drawing the 
distinctions, and of appropriately drawing the right lessons 
from all of that.
    In a series of recent hearings before this committee, we 
have tried to balance some of these questions. We are not 
finished. But today, we are going to hear about al-Qaeda 
specifically, about our ongoing efforts against al-Qaeda. Also, 
we are going to hear about our efforts to counter terror in 
Afghanistan and Pakistan and how those efforts fit into the 
larger fight against a global network.
    Remember, the al-Qaeda that was in a very few countries--
and most specifically in Afghanistan in September of 2001--is 
now an al-Qaeda that is in about 58, 59--who knows precisely, 
but we put it at around 60 countries. It is a global network, 
which it wasn't in 2001. We need to examinewhat our offshore 
counterterrorism efforts in places like Somalia and Yemen may 
tell us with respect to what is possible and not possible in 
Afghanistan or Pakistan, whether there is, in fact, legitimacy 
to thinking about some kind of a narrower focus like the one 
that al-Qaeda enjoyed in Afghanistan before 9/11.
    When al-Qaeda terrorists bombed American embassies in 
Africa and then attacked us on our own soil, their declaration 
of war against us was clear. Our response in the years since, 
while far from perfect, has been forceful and it has been 
tireless. And it is true that we have severely damaged al-
Qaeda.
    We should acknowledge the enormous debt that we owe to the 
courageous men and women of our intelligence community who have 
worked night and day, often without recognition, without 
adequate thanks, in many cases without anybody knowing who they 
are in order to ensure that the unthinkable doesn't happen 
again.
    And I want to say a word about those real successes that we 
have had. We have hunted down much of al-Qaeda's leadership. We 
have disrupted terrorist networks in South and East Asia, 
Europe, and right here in the United States. And while many 
Americans have been killed fighting terrorists overseas, we are 
blessed to note that there has not been an attack on the soil 
of the United States in 8 years.
    But let me say a word about that. I remember, and I think 
many of you do, how the last administration--particularly the 
President, the Vice President, and the Secretary of State--
reminded us frequently that it was not a question of if, it is 
a question of when. And all of us need to be sober-minded about 
that reality, notwithstanding the last 8 years.
    U.S. and international intelligence officials tell us they 
have succeeded in recruiting spies inside al-Qaeda and around 
it who have helped us disrupt future attacks. Targeted air 
strikes and enhanced assistance from allied governments have 
broadened our reach and diminished the effectiveness of the al-
Qaeda network.
    Just last week, The Washington Post reported that these 
tactical advances have led to the deaths of more than a dozen 
senior figures in al-Qaeda and allied groups in the past year 
alone. A U.S. counterterrorism official said that Osama bin 
Laden and his main lieutenants are isolated and unable to 
coordinate high-profile attacks.
    Now, of course, defeating terrorist networks is more than 
just killing terrorists and disrupting their operations. In 
many ways, our efforts to combat terrorism can best be thought 
of as a global counterinsurgency campaign, where deterring 
tomorrow's terrorists is every bit as important as killing or 
disrupting today's.
    At its core, this is a battle against the extremists for 
the future of people's minds in many different parts of the 
world, and success will require a comprehensive strategy to 
address the root causes of terrorism. We must delegitimize 
terrorists and win over the hearts and the minds of those in 
the Muslim world.
    Even as we mark our progress in this endeavor, we are going 
to have to remain vigilant. We cannot confuse the absence of an 
attack on our soil for the absence of a threat. The Director of 
National Intelligence told Congress that, for all of our 
programs, al-Qaeda and its affiliates continue to pose a 
significant threat to America and that the group's central 
leadership has been able to regenerate the core operational 
capabilities needed to conduct at least small-scale attacks 
inside the United States.
    As our tactics have evolved, so have the terrorists'. Al-
Qaeda and its affiliates have begun hitting softer Western 
targets--a subway train in Madrid, buses in London, and the 
business district in Istanbul. U.S. law enforcement officials 
remain vigilant against the possibility of attacks against U.S. 
transportation hubs, tourist attractions, and anywhere that 
people gather.
    Some places, however, are more dangerous today than they 
have ever been. Yemen and Somalia present two very serious 
challenges--fragile societies made even more lawless by the 
presence of terrorists trained in camps in Afghanistan and 
Pakistan, which is something we have to consider as we think 
about our policies toward both of those countries.
    Morocco and Algeria have suffered attacks by al-Qaeda, with 
dozens of civilians losing their lives. The Philippines faces a 
daunting challenge from groups allied with al-Qaeda seeking to 
forge an Islamist state in the country's south.
    We are succeeding in our efforts to disrupt al-Qaeda in 
Afghanistan, but there remains an enormous amount of work to do 
in places like Pakistan and Somalia and many other parts of the 
world. The issue is going to be with us, I fear to say, for 
years to come, and our thinking needs to evolve along with the 
threat.
    We are fortunate to have with us today three highly 
regarded experts on al-Qaeda and its tactics, each of whom has 
already made real contributions to our understanding of 
terrorism and how to prevent it.
    Robert Grenier is the former director of the DCI 
Counterterrorist Center and former CIA station chief in 
Pakistan.
    Peter Bergen is the Schwartz senior fellow at the New 
America Foundation, where he co-directs the Terrorism Strategy 
Initiative. And Mr. Bergen produced Osama bin Laden's first 
television interview in 1997 in which he declared war on the 
United States.
    Dr. Marc Sageman is the senior fellow in the Foreign Policy 
Research Institute Center on Terrorism, Counterterrorism, and 
Homeland Security.
    So we thank you, all three. Did I pronounce that 
correctly--Sageman?
    Dr. Sageman. Yes.
    The Chairman. It is not Seg-man? I apologize. And we are 
very, very grateful to each of you being here to help us think 
through this very important topic. Thank you.
    Senator Lugar?

              STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, I thank the chairman for holding this 
important hearing.
    As we debate policy in Afghanistan and the merits of our 
approach to stability in the region, we take this opportunity 
to explore the broader issues presented by the continuing 
terrorist threat emanating from al-Qaeda. The Director of 
National Intelligence, Admiral Dennis Blair, released the 
National Intelligence Strategy in August. It identified key 
countries and issues of concern to our national security for 
the next 4 years.
    The report explains that violent extremists ``are planning 
to use terrorism--including the possible use of nuclear weapons 
or devices if they can acquire them--to attack the United 
States. Working in a number of regions, these groups aim to 
derail the rule of law, erode societal order, attack U.S. 
strategic partners, and otherwise challenge U.S. interests 
worldwide.''
    A loose network of extremist al-Qaeda cohorts has sprung up 
across the globe. Its affiliates have aligned their actions and 
rhetoric with the core al-Qaeda leadership in Pakistan to gain 
notoriety and financing.
    The largest al-Qaeda affiliate, although greatly 
diminished, remains al-Qaeda in Iraq. Some of its foreign 
fighters are returning home to local terrorist branches. For 
example, a fading domestic Algerian rebel group absorbed 
fighters from Iraq, expanded its aspirations, and transformed 
itself into ``al-Qaeda of the Islamic Maghreb.''
    Affiliates of al-Qaeda also emerged in Somalia, Saudi 
Arabia, and Yemen. The Saudi and Yemeni groups recently merged 
into ``al-Qaeda of the Arabian Peninsula,'' as both accepted 
fighters returning from Iraq and Afghanistan. These and other 
extremists well beyond the region are connected to the Pakistan 
core and its nexus of training, planning, and operations.
    Reportedly, al-Qaeda no longer has a major presence in 
Afghanistan, although witnesses in our previous hearings have 
indicated that its reestablishment would be nearly inevitable 
if a Taliban government returned to Kabul. Director of the 
National Counterterrorism Center, Michael Leiter, testified in 
the Senate last week that al-Qaeda's core in Pakistan still 
represents the most dangerous component of the wider network.
    He stated that our intelligence community assessed that 
``this core is actively engaged in operational plotting and 
continues recruiting, training, and transporting operatives, to 
include individuals from Western Europe and North America.''
    In addition, thousands of virtual adherents are connected 
to al-Qaeda through the Internet. These autonomous affiliates 
exist across Asia, Africa, Europe, and the Americas. Because of 
this diversification, eliminating al-Qaeda leadership in 
Pakistan would not solve the global terrorism problem. But al-
Qaeda's leadership continues to be an operational and 
ideological threat that requires our strongest efforts.
    Successes in arresting or killing terrorists and disrupting 
terrorist plots are essential in keeping the threat at bay, but 
insufficient for solving the problem. There is a far more 
enduring undercurrent of finance and ideology fueling terror.
    Consequently, one of the most important aspects of 
combating al-Qaeda is the international effort to identify and 
to eliminate its sources of finance. Money is a key ingredient 
for recruitment of new terrorists and the staging of any large 
operation. Despite some success in narrowing al-Qaeda's funding 
options, its financing system has adapted over time.
    The United States and its allies should be more forceful 
and vocal about sources of finance for extremist groups. The 
information might prove disquieting to some friends, but 
governments must be held accountable for tacitly enabling those 
who fuel violent extremism.
    We also must ask if our current strategy sufficiently 
accounts for the roles of diplomacy, international exchange, 
and foreign assistance, so that we can reach Muslims who 
currently hear a message of hate from their most radical ranks. 
How do we counter not just al-Qaeda's tactics, but enlist 
support to discredit this strategic plan and vision within the 
worldwide Muslim community?
    I welcome our witnesses and look forward to their 
assessments of the current state of the terrorist threat and 
the effectiveness of U.S. policies to combat it.
    And I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar. Thanks for helping 
to take part in this and lead it. I appreciate it.
    Gentlemen, if you would begin? We look forward to your 
testimony very much and to a good dialogue with the members of 
the committee.
    Mr. Grenier, if you would begin, and we will just run right 
down the line. Thanks.
    Mr. Grenier. Very good.
    The Chairman. Your full statements will be placed in the 
record as if read in full and welcome any summary comments. 
Thanks.

       STATEMENT OF ROBERT GRENIER, FORMER DIRECTOR, DCI 
    COUNTERTERRORIST CENTER AND FORMER CIA STATION CHIEF IN 
                            PAKISTAN

    Mr. Grenier. Thank you, Mr. Chairman.
    I would like to thank you and the other members of the 
committee for the opportunity to come and testify before you 
today. It is a great honor and a privilege.
    I take very seriously the admonition that we have been 
given to keep our opening remarks brief. I will attempt to do 
that. And so, rather than trying to answer all conceivable 
questions at the outset, instead I will try to take a couple of 
minutes just to frame some of the issues in ways that I hope 
will be useful to our subsequent discussion.
    I should also say at the outset that I confront the 
questions that we will be discussing today not as a scholar--
God knows that the scholars are off to my left here--but 
rather, as a former operator, albeit a former operator who is 
now 3 years out of Government and whose sources of information, 
therefore, are largely confined to what he reads in the 
newspaper.
    But as I read the newspaper and I attempt to read between 
the lines, it seems to me that there are aspects of our overall 
confrontation with al-Qaeda that are going quite well and 
others substantially less so.
    As we look at the confrontation with al-Qaeda, it seems to 
me that it consists of three distinct, discrete aspects. One is 
what we might call the tactical fight, the international 
cooperative effort to track down, to capture, and to kill 
terrorists. Secondly, it is the effort to deny al-Qaeda safe 
haven. And the third is what the chairman just referred to as a 
global counterinsurgency, what is often referred to as the war 
of ideas, the effort to confront al-Qaeda as an ideological 
movement as opposed to a terrorist organization.
    Well, without belaboring the point, it seems to me that the 
tactical fight is going quite well. Whether we look at North 
America or Europe or much of North Africa, much of the Arabian 
Peninsula, Southeast Asia, we can see that al-Qaeda is 
fundamentally on the back foot. They have suffered significant 
losses, and those losses extend, importantly, to the relative 
safe haven that they now enjoy along the Pakistan-Afghanistan 
border.
    And it seems to me that at the end of the day, one of the 
more prominent--in fact, from our perspective, the most 
prominent indication of that success in that global cooperative 
effort will prove to be the recent arrest of Najibullah Zazi. 
Again, I am reading between the lines. I am speculating here. 
But I suspect that the end of the day, as more of the onions 
are peeled back, we will discover that our ability to thwart 
the threat that he poses, such as it may prove in the end to 
be, will have come as a result of effective cooperation among a 
number of countries extending back over a significant period of 
time.
    But as we look at the parts of the struggle that aren't 
going as well, as we look at the areas that cause the experts 
and the security officials concern, almost without exception, 
those involve ungoverned space. Whether we are talking about 
desert areas in Mauritania and Southern Algeria, where there is 
a relative resurgence of al-Qaeda in the Islamic Maghreb, 
whether we are talking about Somalia and the growing strength 
of al-Shabaab and its AQ adherents, whether we are looking at 
Yemen, whether we are looking, yes, at Afghanistan and 
Pakistan, the areas that are highly problematic for us now 
involve ungoverned space and, therefore, the real or the 
potential for terrorist safe haven.
    Now there are those who raise a fundamental question. There 
are those who ask whether safe haven is actually important to 
al-Qaeda or, otherwise put, is safe haven of sufficient 
importance to al-Qaeda as to justify the effort and the losses 
that we must incur if we are to counter those safe havens?
    Well it seems to me that the answer to that question, 
without necessarily knowing what the costs will be, is yes.
    And I come at that as a former operator. I spent much of my 
career engaged in clandestine operations, working against 
hostile governments, trying to hide my activities from those 
who were charged with discovering those activities, operating 
on turf that was controlled by them and not me. It is not a 
place that you want to be if you can help it.
    If you don't have safe haven, you are very limited in terms 
of what you can achieve, sustainably, over time. And as an 
operator, as a clandestine operator in the past, we had safe 
haven. We would not have been as successful as we were without 
it. And the same, I believe, is true of al-Qaeda.
    And you can say that in this day and time, yes, there is 
safe haven that you can find on the Internet. There is safe 
haven in apartments in Hamburg. But unless you have a real safe 
haven, there are certain aspects of your mission that you 
simply are not going to be able to do effectively, particularly 
involving recruitment and training. We can drill into that 
further.
    So as we take a look at those issues in the context of 
Afghanistan and Pakistan, where the two key aspects that we are 
discussing today of the confrontation with al-Qaeda come 
together, the tactical fight and the fight to deny safe haven, 
there are those who raise a number of significant questions. 
There are those who say, well, look, our objective at the end 
of the day is to counter al-Qaeda and affiliated groups. Well, 
everyone concedes that al-Qaeda does not have a substantial 
presence currently in Afghanistan. So why are we there?
    Well, we know that al-Qaeda has a substantial presence 
across the border in Pakistan. And the fact that they are on 
the Pakistani side of the border right now is a matter of 
tactical convenience to them. If the pressure were reduced on 
the Afghan side and it were increased on the Pakistani side, it 
would be very easy for them to cross the border.
    More fundamentally, though, there are those who say, well, 
look, even if the Taliban were to gain control of substantial 
portions of Afghanistan, as it has in the past, we don't know 
that they would provide a safe haven to al-Qaeda. Haven't they 
learned the lesson of 9/11?
    Well, I think they have learned a lot of lessons since 9/
11, but they are not the ones that we would have them learn. 
There are at least two factors that I would point to. One is 
that as you look at the number of disparate groups that are 
active in Afghanistan, Pakistan, elsewhere, in South Asia--
whether it is the Afghan Taliban, the Pakistani Taliban, the 
Kashmiri groups, sectarian groups--they all cooperate far more 
closely now than they did at the time of 9/11. Pressure on all 
has forced them to cooperate in ways that would have been 
unthinkable before 9/11.
    Secondly, there has been an evolution in their thinking. 
They think of themselves differently now than they did 8 years 
ago. Yes, they are seized with their own parochial interests, 
but they see the pursuit of those parochial interests as being 
part of a global effort. They see themselves as part of a 
global jihad that most of them simply did not, apart from a 
handful of leaders, back before 9/11.
    For the Taliban, the question as to whether they should 
provide safe haven for al-Qaeda is not an open-ended strategic 
discussion. For them, it is a very simple religious question. 
The question for them is, are we enjoined to support co-
religionists who are engaged in a legitimate struggle against 
infidel oppressors, or can we simply pursue our own ends and 
ignore them?
    And if you ask the question, the answer for them is very, 
very clear. There is only one answer that they can reach. If 
they are asked for support by al-Qaeda, they cannot and they 
will not say no.
    Leaving aside this whole question of the importance of safe 
haven, even if we don't accept that, there are those who say, 
well, couldn't we limit ourselves to a counterterrorism effort 
in Afghanistan much more narrowly defined? Well, that is a long 
discussion, which I hope that we will get into, but I would 
raise two points.
    One is that even to do the counterterrorism effort based in 
Afghanistan, we need a very robust presence there.
    Much of our relative success against the al-Qaeda 
leadership, particularly across the border in Pakistan, is 
owing to the intelligence and military platform that we have 
inside Afghanistan. If that were to be diminished, I believe 
our success would diminish along with it.
    Secondly, there is the whole issue of Afghan tolerance. The 
Afghans are much less interested in al-Qaeda. They are much 
more interested in wresting control of their country from the 
Taliban. It is hard to imagine that they would continue to 
welcome us in the way that they do if there weren't something 
in it for them.
    And there are those who pose the question in even more 
stark terms. Well, couldn't we simply do this as a 
counterterrorism effort from offshore? Well, we considered 
whether we could do that when I was sitting in Islamabad 
immediately after 9/11, and the short answer is no. We can't. 
You absolutely have to have a platform there on the ground if 
you are to conduct counterterrorism operations effectively. It 
was the Pakistanis who provided that to us initially.
    Which gets us down to the final question--the one that we 
haven't been asked today, but which, obviously, the 
administration is struggling with--and that is the question of 
troops. If we accept that we need to do both a counterterrorism 
effort and a counterinsurgency effort to deny safe haven, what 
sort of a force posture do we need? Well, I don't think that I 
can answer that question.
    But it seems to me that the more fundamental question, the 
far more important one, quite apart from the numbers of troops 
required, is do we have an achievable objective, and do we have 
an effective strategy to achieve that objective?
    And as I look at the situation right now, unfortunately, my 
answer to both questions is no.
    I fear that we are trying to achieve the unachievable in 
Afghanistan. I fear that we are trying for an outcome which 
current reality will not admit. And secondly, I think that the 
tactics or the strategy that we are employing to achieve that 
objective is simply not going to work over time, relying as it 
does on building up national institutions in Afghanistan of a 
sort that have never existed in the past.
    So having raised more questions than answers, I will 
terminate my remarks.
    The Chairman. Those are good remarks and good questions, 
and ones we want to pursue. So we look forward to that.
    Mr. Sageman?

   STATEMENT OF MARC SAGEMAN, SENIOR FELLOW, FOREIGN POLICY 
              RESEARCH INSTITUTE, WASHINGTON, D.C.

    Dr. Sageman. Thank you, Mr. Chairman, Senator Lugar, 
members of the committee.
    I thank you for the opportunity to appear before you today 
to discuss the threat of al-Qaeda in Afghanistan and beyond.
    I also talk not only as a scholar, but as a former operator 
being involved in the insurgency, Afghan insurgency against the 
Soviets in the 1980s where I had the privilege of serving under 
Milt Bearden, who was here last week.
    Al-Qaeda is once again at the forefront of U.S. Government 
policy debate. To clarify its threat to the homeland and to 
those of other Western nations, I would like to share with you 
the result of a comprehensive survey that I conducted of all 
plots, successful and unsuccessful, over the past 20 years 
carried out by al-Qaeda, its transnational allies, and 
homegrown groups inspired by al-Qaeda.
    I included all the plots that had any loose link to al-
Qaeda, its ideology, had reached a level of maturity, were 
violent in nature, and were initiated by the terrorists.
    The top graph that you see over there demonstrates that 
there were 60 plots carried out by 46 different networks. It 
started out in New York City with the first World Trade Center 
bombing. The first peak that you see over there is a large wave 
of GIA bombings in France in the summer of 1995. Then the 
number of plots kind of diminished. It spread around the world, 
peaked again in 2004, probably as a reaction to the U.S. 
invasion of Iraq, and it has declined ever since. Last year, I 
think there were only three plots around the world.
    The bottom graph that you see there demonstrates the 
command and control of the various plots by transnational 
terrorist organizations. I erred on the side of being over 
inclusive. That is including plots as being under a group's 
command and control.
    As you see, there were 12 al-Qaeda core plots in blue, 15 
al-Qaeda affiliate--other terrorist organization--in red, and 
32 homegrown plots in green without any physical link to any 
formal terrorist organization.
    After the Algerian plots of the 1990s, al-Qaeda plots 
started after bin Laden`` 1998 declaration of war against the 
West. It peaked in 2001 and then decreased thereafter to about 
one plot a year. Over the past 5 years, 80 percent of the plots 
were homegrown, autonomous plots.
    In terms of training, about 57 percent of the terrorist 
group had received some training with a terrorist organization 
in Afghanistan and Pakistan. Over the past 7 years, it has only 
been Pakistan. The trained networks have a 20 percent 
probability of inflicting a casualty on the Western population, 
which was much greater than 5 percent probability of success of 
an untrained group.
    In terms of damages, of all the 60 plots, only 14 succeeded 
in afflicting any casualty. Of these, 9 were that Algerian 
group in 1995, 2 were al-Qaeda--namely, 9/11 and the London 7/7 
bombing--and 3 were independent plots. The fact that only two 
al-Qaeda plots in the West were successful in the past two 
decades has been obscured by the horrible lethality, of course.
    So what are the implications of this comprehensive survey 
for the present policy options? One, the threat to the West has 
expanded beyond al-Qaeda to include Pakistani and Uzbeki 
groups. None of these groups are located in Afghanistan, and 
there really is no Afghani al-Qaeda. However, almost 80 percent 
of the plots in the past 5 years are homegrown groups with no 
physical links to any transnational terrorist group.
    Two, counterterrorism is working. There has been no 
casualty in the United States for the past 8 years and no 
casualty in the West in the past 4 years, thanks a lot to the 
effort of Mr. Grenier here.
    At home, counterterrorism consists of a combination of good 
domestic police work, good domestic intelligence, and good 
cooperation with foreign and domestic intelligence agencies. 
Abroad, it consists of an effective strategy of containment of 
young wannabes going to Pakistan through good airport security 
abroad, good border control at home, keeping up the pressure on 
al-Qaeda and its transnational allies in Pakistan, supporting 
the Pakistan military to dislodge foreign militants from 
Waziristan while sealing the border on the Afghan side, and 
continuing sanctuary denial.
    Three, this counterterrorism strategy will continue, no 
matter what. So the real question is whether there is any added 
value to the military surge in Afghanistan for protection of 
the homeland. Clearly, such a surge would not help us protect 
the homeland from al-Qaeda and its allies because they are not 
in Afghanistan. The Afghan Taliban is not al-Qaeda and does not 
share internationally its ambition.
    Will the military surge prevent the return of al-Qaeda to 
Afghanistan? The assumption is that the Taliban return to power 
will automatically allow al-Qaeda to reconstitute in 
Afghanistan and threaten the homeland.
    The capture of Afghanistan by the Taliban is not a sure 
thing. It took more than 3 years for much better armed and a 
far more popular insurgency to capture the power after the 
complete withdrawal from the Soviet forces in Afghanistan 20 
years ago. The Taliban is really a collection of rival and 
fractious groups united against us, but lacking the ability to 
coalesce in the future or in the near future, I should say, 
into an offensive force capable of marching on to Kabul.
    Taliban return to power does not automatically mean an 
invitation to al-Qaeda to return to Afghanistan. The 
relationship between al-Qaeda and other terrorist groups with a 
major faction constituting the Afghan Taliban has always been 
strained. This provides the U.S. government with the 
opportunity to play on internal rivalries and use political 
skills and economic incentive to discourage the Taliban from 
hosting al-Qaeda again.
    And even if al-Qaeda returns to Afghanistan in some form, 
it is not going to be in the same form as in the 1990s, when 
not so benign neglect by Western forces allowed them to grow to 
the threat that we saw on 9/11.
    Sanctuary denial is the appropriate mission for the 
military. So there is definitely no necessity and little added 
value to the military surge in this counterinsurgency option. 
It is the most costly in terms of blood and treasure, probably 
the least likely to succeed, and may even increase terrorism in 
the homeland through homegrown wannabes' reaction to the 
inevitable increase in killing of Muslims by Western forces.
    Thank you very much.

    [The prepared statement of Dr. Sageman follows:]


            Prepared Statement of Marc Sageman, M.D., Ph.D.

    Mr. Chairman, Senator Lugar, and Members of the Committee: I thank 
you for the opportunity to appear before you today to discuss the 
threat of al-Qaeda in Afghanistan and beyond.
    Al-Qaeda is once again at the forefront of U.S. Government policy 
debate. Our strategic interest in Afghanistan is linked to the 
protection of the homeland and that of our Western allies against 
terrorist attacks. A moment's reflection will demonstrate this. Al-
Qaeda found sanctuary in the Sudan for four years, from 1992 to 1996, 
when the Sudanese government expelled it. During this Sudanese phase, 
al-Qaeda developed its strategy to target the West, and especially the 
United States and trained potential terrorists there. Indeed, the 
planning of the simultaneous bombings of our Embassies in Nairobi and 
Dar es Salaam was done in Khartoum. Had al-Qaeda not been thrown out of 
the Sudan, I have no doubt that we would be discussing strategy options 
about the Sudan rather than Afghanistan.
    Our ultimate goal of homeland security will be served through a 
better understanding of the threat confronting it in order to 
``disrupt, dismantle, and eventually defeat al-Qaeda and its allies.'' 
Let me describe this global threat through a comprehensive survey that 
I conducted of all the al-Qaeda plots in the West, all the al-Qaeda 
affiliate plots in the West and all the plots done ``in the name of al-
Qaeda'' in the West since the formation of al-Qaeda in August 1988. It 
is necessary to expand our inquiry because al-Qaeda is now only one of 
the many actors in this global neo-jihadi terrorist threat against the 
West. I call it neo-jihadi because the terrorists have appropriated 
this contested concept to themselves much to the protest of respected 
Islamic scholars and the mainstream Muslim communities worldwide.\1\ 
Terrorism for the purpose of this project is the use of violence by 
non-state collective actors against non-combatants in the West in 
pursuit of a self-appointed global jihad.
---------------------------------------------------------------------------
    \1\ For an analysis of the concept of jihad through Muslim 
jurisprudence and history,see Richard Bonney, 2004, Jihad: From Qur'an 
to bin Laden, New York: Palgrave Macmillan.
---------------------------------------------------------------------------
    I conducted this survey when I spent a year at the U.S. Secret 
Service and an additional year at the New York Police Department as its 
first scholar-in-residence. Although both organizations helped me 
immensely, the following remarks are my own and cannot be read as their 
position or opinions. Because homeland security in the West essentially 
means population protection in the West, I have limited the inquiry to 
violent plots to be executed in the geographical territory of the West. 
By the West, I mean North America, Australia and Western Europe, with 
the exception of the civil war in the Balkans since terrorism is often 
a tactic of war, but wartime terrorism may not teach us much about 
terrorism during peace time. To be included in the survey, each plot 
had to have some loose operational or inspirational link to al-Qaeda or 
its affiliates; it had to reach a certain level of maturity, 
characterized by overt acts in furtherance; it consisted of violent 
acts targeting people in the West, and therefore excluded cases of 
purely financial or material support for terrorist acts committed 
elsewhere; some planning had to be done in the West; and terrorists had 
to initiate the plot. To accurately evaluate the threat, I of course 
included both successful and unsuccessful plots, which are the true 
measure of the extent of the threat, rather than just the successful 
ones. The global neo-jihadi terrorist threat includes plots under the 
control of al-Qaeda core; al-Qaeda affiliates like the Algerian Groupes 
Islamiques Armes (GIA), Pakistani Lashkar e-Toyba (LT), the Uzbek 
Islamic Jihad Union (IJU), the Pakistani Tehrik e-Taliban Pakistan 
(TTP).; and threats by autonomous groups inspired by al-Qaeda like the 
Dutch Hofstad group. I excluded lone wolves, who were not physically or 
virtually connected to anyone in the global neo-jihad, for they often 
carry out their atrocities on the basis of delusion and mental disorder 
rather than for political reasons.
    My sources of information were legal documents, trial transcripts, 
consultations with foreign and domestic intelligence and law 
enforcement agencies, to which my position gave me access. Although all 
these plots are within the open source domain, I did corroborate the 
validity of the data in the classified domain.
    The specified criteria yielded a total of 60 global neo-jihadi 
terrorist plots in the West, perpetrated by 46 terrorist networks in 
the past two decades, from the first World Trade Center attack on 
February 26, 1993 to the December 16, 2008 arrest of Rany Arnaud, who 
was plotting to blow up the Direction Generale du Renseignement 
Interieur, the French FBI equivalent, in a suburb of Paris. Although 
people associate al-Qaeda plots with airplanes or bombs, the plots were 
quite diverse: simple assassinations, attempted kidnapping and 
decapitation, car/truck bombs, airplane hijacking, and improvised 
explosive devices. Some operations were suicidal, but most were not. Of 
all the plots, only one is completely unsolved--the bombing of the Port 
Royal Metro station in Paris on December 3, 1996, which resulted in 
many casualties. Although completely unsolved, the timing, context and 
mode of operation seem to point to the GIA, trying to avenge its 
followers, who were put on trial around that time.The following graph 
is the timeline distribution of the plots.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Figure 1. Timeline distribution of global neo-jihadi terrorist plots in 
                               the West.

    We can see from the above graph that global neo-jihadi terrorist 
plots preceded the 9/11/01 attack when the Western public first started 
to appreciate the true extent of the threat confronting it. The first 
plot in the West was the first World Trade Center bombing in February 
1993, or about four and a half years after the creation of al-Qaeda 
proper. The timeline distribution of the plots is bi-modal. The first 
peak consisted of raids by the Algerian GIA against France and stopped 
in 1996; the later plots were more widely geographically distributed 
and reached a peak in 2004, after which they declined. In the recent 
controversy over whether al-Qaeda (however defined, here I am using a 
more inclusive and therefore much wider definition of the threat in the 
West) is on the move or on the run, we can see that the wider ``al 
Qaeda'' threat or the global neo-jihadi terrorist threat is definitely 
on the run since its high water mark of 2004.
    Some networks of terrorists, who temporarily escaped arrest, 
carried out multiple plots in the West. This is especially true of the 
1995 wave of ten GIA plots against France, carried out by the same 
network in France. In order to understand the actual threat, as opposed 
to the inability of local police forces to disrupt existing networks, I 
also coded the global neo-jihadi threat to the West according to the 
specific terrorist networks carrying out operations (as opposed to 
plots). Coding the data according to networks rather than plots gives 
the following graph.
    What is most affected by this coding is the collapse of the GIA 
wave of bombings in France in 1995, now represented by the same group 
rather than the ten separate plots. Again, loosely global neo-jihadi 
networks in the West preceded the 9/11/01 operation. Here, the graph 
indicates that global neo-jihadi networks in the West became more 
numerous in 2001, experienced a temporary small decline, and reached 
its 2004 high water mark, after which it declined, especially after 
2007. So, here again, ``al-Qaeda'' is on the run and not on the move. I 
suspect the post 2003 bump in the number of networks threatening the 
West in the name of AQ was a reaction to the Western invasion of Iraq.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Figure 2. Timeline distribution of global neo-jihadi terrorist networks 
                              in the West.

    Although the press likes to call any militant Islamist plot an al-
Qaeda plot, let us see how many are truly al-Qaeda plots. I coded the 
command and control of each plot according to the following 
classification (I did not code the 1996 Paris Metro plot because it is 
still unsolved):


   AQ Core means that AQ proper directed and controlled the operation.

   AQ Affiliated means that an international terrorist organization 
        affiliated with AQ, such as LT or IJU, directed and controlled 
        the operation.

   AQ Inspired means that there was no direction or control by any of 
        the above organization for the plot. In other words, the plot 
        was completely autonomous. In this coding system, I leaned 
        backward to give credit to a terrorist organization when there 
        was any doubt about its command and control over an operation. 
        I did this to increase the probability of detecting any 
        coordination of global neo-jihadi terrorism by a single entity, 
        a sort of neo-jihadi equivalent of the Comintern--the Soviet 
        Central Committee in Moscow that tried to coordinate Communist 
        activities worldwide.
    The result is:


12 AQ Core controlled operations (20%)

   LAX millenial plot (1999)

   Strasbourg Christmas Market bombing plot (2000)

   9/11/01 attack (2001)

   Paris Embassy bombing plot (2001)

   Belgian Kleine Brogel US Air Force base bombing plot (2001)

   Shoe bomber plot (2001)

   London fertilizer bomb plot (Operation Crevice, 2004)

   London limousine bombing plot (Operation Rhyme, 2004)

   London 7/7 bombings (Theseus case) (2005)

   London 7/21 bombing plot (Vivace case) (2005)

   London airplanes liquid bomb plot (Operation Overt) (2006)

   Danish Glasvej bombing plot (Operation Dagger) (2007)


15 AQ affiliated terrorist organizations controlled operations (25%)

   11 GIA plots against France (1994-5)

   German al-Tawhid bombing plots (Zarqawi group) (2002)

   Sydney bombing plot (Brigitte-Lodhi, LT controlled) (2003)

   German Sauerland bombing plot (IJU controlled) (2007)

   Barcelona bombing plot (alleged TTP control) (2008)


32 AQ inspired terrorist plots, carried out either on behalf of al-
Qaeda or other transnational terrorist organizations (54%)



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 3. Timeline of global neo-jihadi terrorist plots in the West: 
                           Command & Control.

    Al-Qaeda-inspired autonomous plots constitute the majority of all 
the plots, followed by al-Qaeda affiliated plots, with true al-Qaeda 
plots closing out the sample at only 20%. Viewing the graph 
chronologically, al-Qaeda Core did not start this terrorist campaign 
against the West. Indeed, all al-Qaeda Core plots in the West took 
place after bin Laden's 1998 hukm (his `considered judgment,' not fatwa 
as is incorrectly reported in the West and which carries much less 
authority than a fatwa).\2\ Two attacks in New York City conducted by 
former Afghan Arabs inaugurated this worldwide wave of bombings against 
the West. They were conducted locally, and there is no evidence that 
there was any guidance, direction or control by al-Qaeda Core. If 
anything, they were more closely connected with the Egyptian Islamic 
Group than al-Qaeda or its ally, the Egyptian Islamic Jihad. These 
attacks were followed by a large wave of GIA attacks against France, 
which had to do with the internal dynamics of the Algerian civil war in 
the 1990s, and again had no guidance, direction or control from al-
Qaeda Core. The actual al-Qaeda Core plots in the West began in late 
1999, as part of a wave of worldwide bombings to mark the dawn of the 
new Western Millennium, peaked in 2001, and decreased thereafter to 
about one plot per year, with a small uptick in 2004-2005 and fading 
over the next two years. Despite even recent claims that al-Qaeda is on 
the move, it is clear that al-Qaeda in the West has been on the decline 
since its apogee of 2001. When studying a phenomenon, it is important 
to count and look at the trend. When one relies on out of context 
anecdotal evidence, it is easy to make mistakes. I suspect that the 
recent advocates for a ``resurgent'' al-Qaeda were confused by the 
complexity of the 2006 London airplanes liquid bomb plot (Overt case) 
and mistook complexity for resurgence. The fact is clear that since its 
loss of sanctuary in Afghanistan in 2001, al-Qaeda proper has had 
trouble projecting to the West. It was able to operate locally in South 
Asia and Iraq, especially after al Zarqawi proclaimed a merger of his 
organization with al-Qaeda.
---------------------------------------------------------------------------
    \2\ See Lawrence, Bruce, ed., 2005, Messages to the World: The 
Statements of Osama bin Laden, London: Verso, page 61.
---------------------------------------------------------------------------
    Let's look at the past five years:


   6 AQ Core plots (2004 Rhyme and Crevice plots; 2005 Theseus and 
        Vivace cases; 2006 Overt case, all in Britain, and 2007 Dagger 
        plot in Denmark)

   2 AQ Affiliated plots (2007 Sauerland & 2008 Barcelona Plots)

   25 AQ Inspired autonomous plots, conducted by homegrown 
        perpetrators, with no connections whatsoever with any formal 
        transnational terrorist organizations


    The above statistics are crystal clear: 78% of all global neo-
jihadi terrorist plots in the West in the past five years came from 
autonomous homegrown groups without any connection, direction or 
control from al-Qaeda Core or its allies. The `resurgent al-Qaeda' in 
the West argument has no empirical foundation. The paucity of actual 
al-Qaeda and other transnational terrorist organization plots compared 
to the number of autonomous plots refutes the claims by some heads of 
the Intelligence Community (Hayden, 2008) that all Islamist plots in 
the West can be traced back to the Afghan Pakistani border. Far from 
being the ``epicenter of terrorism,'' this Pakistani region is more 
like the finishing school of global neo-jihadi terrorism, where a few 
amateur wannabes are transformed into dangerous terrorists.
    The graph also shows a sporadic involvement of al-Qaeda affiliated 
terrorist groups in plotting against the West in the past six years. 
These groups located in Pakistan are showing an increased ability to 
project against the West, although most of their operations are still 
confined to South Asia. However, in the internal rivalry among 
terrorist groups in South Asia, the quickest way to establish one's 
reputation is to demonstrate an ability to strike in the West. Although 
it is rare for al-Qaeda core to claim credit for its operations in the 
West, its rivals in South Asia have been quick to claim credit, even 
for failed plots. The Islamic Jihad Union claimed credit for the failed 
Sauerland group plot in September 2007 and Baitullah Mehsud, the 
deceased chief of Tehrik-e Taliban Pakistan claimed credit for the 
failed Barcelona Plot of January 2008--although this last claim must be 
taken with a great deal of caution because he has claimed credits for 
mishaps in the West that had nothing to do with his organization, like 
the power outage in the U.S. Midwest in 2007 and the mass murder 
incident in Binghamton, New York on April 3, 2009. These empty self-
promotions have been categorically refuted by federal authorities. The 
West may well find itself caught in this militant rivalry for global 
neo-jihadi supremacy.
    My coding probably overestimated the importance of formal terrorist 
groups. Most of the recent plots coded as under al-Qaeda command and 
control, like the 2004 London fertilizer bomb plot, did not involve 
such frequent communication with al-Qaeda, but included instead a short 
meeting with a high level representative of al-Qaeda, where local 
Western terrorist wannabes informed al Qeada representatives, Abdal 
Hadi al Iraqi and his lieutenant, of their own initiative to conduct 
operations in the West. In such cases, it seems that the meeting with 
al-Qaeda leadership did not affect the desire of the local terrorists 
to conduct such operations. Here the role of the al-Qaeda was passive 
agreement with little influence on the plot.
    IThe dramatic increase in global neo-jihadi terrorism in the first 
decade of the 21st Century has come from al-Qaeda inspired autonomous 
groups with no link to formal transnational terrorist groups. This is 
especially true since the 2003 invasion of Iraq, which has inspired 
local young Muslims to strike out against the West. It seems clear that 
this invasion has created more terrorists in the West, refuting the 
thesis that ``we are fighting them there, so we don't have to fight 
them here.'' The fact that these plots peaked in 2004, one year after 
the invasion of Iraq provides empirical support linking the two events. 
These scattered plots, not coordinated by any central terrorist body 
and constituting almost 80% of the plots against the West in the past 
five years, illustrate how the threat against the West is degenerating 
into a ``leaderless jihad.'' \3\ Far from being directed by a 
Comintern, global neo-jihadi terrorism is evolving to the structure of 
anarchist terrorism that prevailed over a century ago, when no such 
global coordinating committee was ever found despite contemporaneous 
belief in its existence.
---------------------------------------------------------------------------
    \3\ See Sageman, Marc, 2008, Leaderless Jihad: Terror Networks in 
the Twenty-First Century, Philadelphia: University of Pennsylvania 
Press.
---------------------------------------------------------------------------
    Within this cluster of al-Qaeda inspired autonomous groups is a 
troubling emerging pattern of lone wolves, directly linked via the 
Internet to foreign al-Qaeda affiliated terrorist organizations: the 
2004 Rotterdam Plot (Yehya Kadouri), the 2007 Nancy plot (Kamel 
Bouchentouf), the 2008 Exeter plot (Nicky Reilly) and the 2008 French 
Direction Centrale du Renseignement Interieur plot (Rany Arnaud). 
Although these young men are willing to sacrifice themselves for these 
affiliate terrorist groups, they have never met them face to face. This 
may become a trend that will increase in the future.
    Another dimension of allied al-Qaeda involvement in plots against 
the West is financial support of these plots. Again, in examining each 
global neo-jihadi terrorism network for such support, I have erred on 
the side of inclusiveness of al-Qaeda support in this coding scheme.
    Out of forty-five global neo-jihadi terrorist networks in the West, 
al-Qaeda at least partially funded ten. But this overstates its 
importance in this regard. The funding of the 1993 World Trade Center 
plot was minimal, and consisted of Khalid Sheikh Mohammed sending a few 
hundred dollars to his nephew Ramzi Yousef. It is unclear where the 
money came from, but for the sake of this study, let us assume it came 
from al-Qaeda. The same goes for the GIA wave of bombings in France in 
1995. Bin Laden funded the Al Ansar newsletter in London via Rachid 
Ramda, who funded the bombing campaign. I do not know where the money 
for this campaign (as opposed to the newsletter) came from. I suspect 
that it came from the GIA itself through its fund raising campaign 
throughout Europe. However, let us again assume that it came from bin 
Laden either directly or indirectly.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Figure 4. Al-Qaeda Financial Support for Terrorist networks in the 
                                 West.

    We can see that from 1999 to 2001, al-Qaeda either partially or 
fully funded its operations against the West. This was either in the 
form of seed money ($10,000 given to Ahmed Ressam for the 1999 LAX 
bombing plot or the 2000 Strasbourg Christmas Market bombing plot). In 
each case, the perpetrators were supposed to supplement their initial 
funds via their own means (robbery in Ressam's case; drug sales for the 
other). Sometimes, the funding was paid in full, as in the 9/11/01 
plot. I assume that al-Qaeda at least partially funded the rest of the 
2001 al-Qaeda plots since I came across no evidence that these 
perpetrators raised any money on their own. The two alleged al-Qaeda 
plots in 2005 were a departure from this pattern, as there is no 
evidence that the two London bombing plots of July 2005 received any 
money from al-Qaeda. The last alleged al-Qaeda plot, the Danish Glasvej 
(Dagger) case indicates that the main perpetrator, Hamad Khurshid, came 
back from Pakistan with $5,000 in cash. It is true that, except for the 
9/11/01 operation, terrorist plots are not expensive to carry out. 
Autonomous terrorists had no choice but to raise the funds for their 
operation themselves.
    On the other hand, the al-Qaeda-affiliated transnational terrorist 
groups seemed to have funded their own operations. The GIA plots were 
fully funded from outside and none of the perpetrators were tasked with 
raising money for the plots. The 2002 German al Tawhid plot was 
probably funded by Zarqawi. LT funded the Sydney plot through money 
transfers to Willie Brigitte in 2003, and the IJU seemed to have funded 
the 2007 German Sauerland plot. It is unknown the degree of financial 
support that the potential perpetrators of the 2008 Barcelona plot 
received from Mehsud's organization.
    For those who like to follow the money, only a very few plots have 
been funded from the outside in the past five years. Of the twenty-nine 
global neo-jihadi terrorist networks involved during that period, al-
Qaeda core funding has been implicated in only two--Hamad Khurshid and 
the London Rhyme case. Even if we add the non-al Qaeda funded Sauerland 
case and possibly the TTP Barcelona case, the total increases to only 
three or four out of twenty-nine cases (10% or 14%). Since the money 
involved was mostly in the form of cash, following the trail of money 
will not detect global neo-jihadi terrorism plots in the West. The vast 
majority these networks in the past five years have raised their own 
money.
    It has been argued that training by a formal terrorist organization 
is critically important because it transforms amateurs into seasoned 
terrorists. Several Western intelligence leaders have stated that all 
significant global neo-jihadi terrorist plots lead back to the 
Federally Administered Tribal Areas of Pakistan (FATA). The next graph 
tests this claim. I plotted the overseas training for all the terrorist 
networks and coded them as receiving training from al-Qaeda, an al-
Qaeda affiliate, or no training at all--just al-Qaeda inspired. Again, 
I erred on the side of over-inclusiveness of such training, even if 
just one person in the network, who might not have been involved in the 
planning of the plot, had simply undergone familiarization training, 
which did not teach any significant bomb making skills. For this graph, 
I coded Bouyeri as being separate from the Hofstad network because he 
carried out the assassination of Theo van Gogh on his own in 2004 and 
had not gone to any training camp.
    Out of 46 different networks attempting terrorist operations in the 
West,


   16 had at least one member that underwent training at an AQ Core 
        facility (35%)

   10 had at least one member that underwent training at an AQ 
        affiliated facility (22%)

   20 had no training at all (43%)


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Figure 5. Global neo-jihadi terrorist overseas training.

    Lumping the data together hides some important trends. First, more 
people have trained from al-Qaeda and al-Qaeda affiliates than are 
under the control of these respective organizations. Lately, in the 
press and perhaps the intelligence community, there is a presumption 
that attendance in a formal terrorist organization training camp is 
equivalent to being under control of that organization. So, I included 
the 2004 London fertilizer plot (Operation Crevice) and the two 2005 
London underground bombing plots as al-Qaeda controlled because the 
perpetrators had allegedly received al-Qaeda training. However, there 
was no evidence of extensive communication between the perpetrators in 
the field and al-Qaeda Core in Pakistan, unlike the 9/11/01 plot or the 
2006 London airplanes liquid bomb plot, where the perpetrators were in 
almost daily communication with al-Qaeda core, or the 2007 Sauerland 
plotters, who were in constant e-mail contact with their IJU sponsors.
    This equation of training camp attendance with foreign terrorist 
organization control was not presumed for the pre-2001 plots, when 
attendance in an al-Qaeda camp did not mean al-Qaeda control. For 
example, Ramzi Yousef, the bomb maker for the first World Trade Center 
bombing in 1993, never belonged to al-Qaeda, but had undergone 
extensive training at al-Qaeda funded camps and had taught at Abdal 
Rabb Rasul Sayyaf's University of Jihad. Likewise, members of the 2002 
al Tawhid plot had been trained at al-Qaeda camps before joining Abu 
Musab al-Zarqawi's al Tawhid organization. Again, the two ricin plots 
(the 2002 French Chechen network and the 2003 British ricin plot 
[Operation Earth]) included members who had trained in al-Qaeda camps, 
even though neither plot seemed to have been known or sanctioned by al-
Qaeda as far as I know.
    Al-Qaeda funded most of the training camps in Afghanistan before 
the U.S. invasion in the fall of 2001. Anyone who had traveled to 
Afghanistan for training at that time was bound to have been trained in 
an al-Qaeda funded camp. The cases just cited included members who had 
been in Afghanistan before the fall of the Taliban regime. The result 
was that graduates from al-Qaeda camps in the 1990s dominate global 
neo-jihadi terrorism from 1999 to 2002. By the time they were planning 
their operations in the West in 2002 or 2003, they no longer had any 
active link to al-Qaeda. Since 2002, al-Qaeda trained terrorists 
averaged just one plot a year.
    As the availability of al-Qaeda training faded over time, al-Qaeda 
affiliated terrorist organizations in Kashmir or the Federally 
Administered Tribal Areas of Pakistan, such as Laskhar-e Toyba or the 
Islamic Jihad Union, began to fill in the gap starting in 2003 and the 
graduates of their camps also average about one plot a year. So, while 
terrorist networks that had training dominate the overall sample (57%), 
this trend has been reversed in the past five years as only 40% had 
such training. Indeed, all those who underwent training in the past 
five years, acquired it in Pakistan, not Afghanistan.
    Although I use the generic term ``training camp'' to describe the 
place of training before and after 2001, the meaning of the term has 
since changed dramatically and overestimates the formality and 
sophistication of training received by global neo-jihadi terrorist 
networks in the West after 2001. Gone are the large formal camps like 
Khalden, Farooq or Darunta in Afghanistan, which could accommodate 
hundreds of novices and had a formal curriculum with increased levels 
of sophistication sometimes lasting up to a year for the select few 
(see Ahmed Ressam's training for the 1999 LAX millennium plot). After 
the 2001 U.S. invasion of Afghanistan, these formal training facilities 
were destroyed. People traveling to Pakistan afterwards either went to 
formal training facilities conducted by Kashmiri terrorist groups in 
Kashmir (see the legal judgment on Willie Brigitte for a description of 
such camps) or had to arrange for their training through hiring of a 
private trainer. These new ``camps'' were nothing like the former ones: 
they were small rented housing compounds or even two tents in a goat 
patch, where one instructor and his son gave private lessons to at most 
a dozen students, who directly paid for their instruction, the duration 
of which could be as short as two days to about three weeks (see the 
transcripts of the 2004 Crevice or the 2005 Theseus cases, which 
describe this process).
    Later, after a series of truces signed between FATA tribal leaders 
and the government of Pakistan between 2004 and 2006, al-Qaeda or IJU 
provided more formal training in Waziristan, but they never reached the 
level of sophistication in instruction that prevailed before 2001. 
These new facilities in Waziristan were more visible than before and 
could accommodate up to about twenty trainees at a time. Indeed, the 
presence of these camps probably led to alarms that al-Qaeda was 
resurgent. Strangely enough, the presence of these new ``camps'' did 
not affect the frequency of al-Qaeda linked plots in the West. The 
slight bump in frequency of terrorist trained arrests or actual 
bombings in 2004 and 2005 was not due to these truces, because the 
training of the perpetrators preceded the truce agreements. Despite the 
widespread alarms in the West, the truces do not appear to have any 
effect on global neo-jihadi terrorism in the West.
    In any case, the graph shows clearly that the majority of global 
neo-jihadi terrorist networks from 2004 onwards did not have any formal 
training from foreign terrorist groups (60%), contrary to the 
statements of Intelligence agency chiefs on both sides of the Atlantic. 
They were purely homegrown and had no link to the FATA, which some have 
called ``the epicenter of terrorism.'' Instead, they had to rely on 
themselves and the Internet for their acquisition of terrorist skills, 
consistent with the leaderless jihad argument.
    How dangerous is global neo-jihadi terrorism? In other words, what 
is the result of global neo-jihadi terrorist plots in the West? I coded 
all 60 plots in the West in terms of whether they caused any injuries; 
were carried out but failed (no explosion because of a technical 
error); or were interrupted through law enforcement arrests.
    The results are as follows:


14 Plots were successful in terms of incurring any injury and or death 
(23%)

   Only 2 al-Qaeda core plots in the West in the past two decades were 
        successful (9/11/01 and 7/7/05). Of course, they were among the 
        most devastating, resulting in about 3,000 fatalities for 9/11 
        and 52 fatalities for 7/7.

   9 were GIA plots against France, from 1994 to 1996 (I have counted 
        the 1996 Paris Port Royal metro station bombing in this total. 
        The total for all of these attacks is 17 fatalities)

   3 were al-Qaeda inspired plots (1993 World Trade Center bombing, 
        resulting in 6 fatalities; 2004 Madrid bombing, resulting in 
        191 fatalities; 2004 Bouyeri's assassination of Theo van Gogh)


10 Plots resulted in failure to explode (17%)

   3 failures in networks that had succeeded elsewhere (2 by 1995 GIA 
        network in France; and by 2004 Madrid network when bomb on the 
        AVE train line near Toledo failed to detonate)

   2 failures by al-Qaeda trained networks (2001 Shoe bomb plot and 7/
        21/05 London underground bombing plot)

   1 failure in network of French Bosnian war veteran (Roubaix group)

   4 failures in networks that had no foreign terrorist organization 
        training (2004 Rotterdam plot; 2006 Koblenz train plot; 2007 
        Doctors' plot; and 2008 Exeter bomb plot)


36 Plots were interrupted through arrests (60%)


    It is interesting to note that for all the fear of al-Qaeda, the 
organization managed only two successful plots in the West in the last 
twenty years! The fact that they were so deadly overshadows this truth. 
Indeed, successful independent plots outnumber successful al-Qaeda 
plots in the West. However, both are eclipsed by the GIA, which 
infiltrated a team of trained terrorists to France, whose wave of 
terror in the mid-1990s accounts for almost two thirds of all 
successful global neo-jihadi bombings.
    This low rate of success (23%) should not be much comfort to 
intelligence or law enforcement agencies. In ten plots, the terrorists 
succeeded in setting their bombs down without being detected. The bombs 
simply did not detonate, which cannot be due to good intelligence or 
police work. So, the rate of a plot going to termination without being 
detected is 40%, a very high rate indeed, no cause for comfort.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Figure 6. Extent of damages of global neo-jihadi terrorist plots.

    Lest the reader thinks that the cause for failure to detonate was 
the lack of training by homegrown wannabes, six out of the ten failures 
happened to groups that had been trained or been successful before. So, 
60% of the failures to detonate were not due to poor training but to 
poor execution by experienced terrorists.
    It appears that either we are getting luckier or this terrorist 
threat is diminishing. In the United States, the last casualty dates 
back eight years to 9/11/01. There has not been even one plot that went 
to termination since then. In the rest of the West, there has not been 
a single casualty in the past four years. The last casualty dates back 
to 7/7/05, the first London underground plot. However, in the past four 
years, Europe has witnessed a series of bombs that failed to detonate: 
the 2005 second London underground plot (Vivace case); the 2006 German 
Koblenz trolley bombs; the 2007 London and Glasgow Doctors' plot; and 
the 2008 Exeter bomb plot by Nicky Reilly. The last three plots have no 
physical link to any transnational terrorist groups.
    How effective is formal terrorist training for the successful 
completion of a plot? Several critics have tried to downplay the recent 
surge of autonomous homegrown plots as less dangerous than those of 
formally trained terrorists. I analyzed the results of global neo-
jihadi terrorist networks according to their type of training: al-Qaeda 
core training; al-Qaeda affiliates' training; or no formal training at 
all (al Qaeda inspired). Excluding the unsolved 1996 Paris Port Royal 
metro bombing because of lack of information, this leaves forty-five 
networks. But an untrained member of the Hofstad network, Mohammed 
Bouyeri, carried out a successful assassination on his own. His 
``trained'' colleagues, Jason Walters and Ismail Akhnikh, had not been 
aware of his plan and provided no guidance or help. Therefore, I 
decided to code Bouyeri's assassination of Theo van Gogh as a separate 
network, and as al-Qaeda inspired.


    The results are the following:


16 AQ Core trained networks:

   3 succeeded (1993 World Trade Center bombing; 9/11/01; and 7/7/05 
        London underground bombing) [19%]

   2 failed to explode (2001 Shoe bomber; 7/21/05 London underground 
        plot)

   11 were detected and arrested before hand


10 AQ Affiliate trained networks

   2 GIA networks succeeded (1994 AF hijack; 1995 wave of bombing in 
        France) [20%]

   1 failed to explode (1996 Lille plot)

   7 were detected and arrested beforehand (including Hofstad network)


20 AQ Inspired networks (no formal training)

   2 succeeded (2004 Madrid bombings & 2004 Bouyeri assassination of 
        van Gogh)[10%, but only 5% if we don't count the assassination, 
        which requires no training]

   3 failed to explode

   16 were detected and arrested beforehand.


    The above results seem to indicate that formal training matters. 
Both al-Qaeda core and al-Qaeda affiliate formal training resulted in 
an approximate success rate of 20%, while lack of training led to a 
success rate of 10%. So, training doubles the probability of success in 
a terrorist network. However, if the assassination of Theo van Gogh is 
eliminated from the sample, the resulting rate of success of the 
untrained networks falls to 5%. In this case, training would quadruple 
the probability of success in a terrorist network.
    Viewing the sample as a whole obscures the degradation of the 
importance of training in the past five years. During this period, of 
twelve trained terrorist networks, only one succeeded in causing any 
casualty, the 7/7/05 London underground bombing. Two untrained networks 
out of sixteen succeeded in inflicting casualties: the 2004 Madrid 
bombing--where the bombers got access to dynamite, det-cord and 
detonators, and did not have to manufacture their explosive--and the 
2004 Bouyeri assassination of van Gogh.
    I am sorry to have been so lengthy in the presentation of the 
survey, but the devil is in the empirical details to escape another 
round of hysterical rhetoric so common in discussion of global neo-
jihadi terrorism. Now that I've laid down the facts, let me address 
some of the unexamined assumptions, myths and misconceptions about the 
``al Qaeda threat'' in Afghanistan and beyond.


           1. The threat to the West has unfortunately expanded beyond 
        al-Qaeda per se. The various terrorists attempting to carry out 
        operations in the West for al-Qaeda allies or in its name 
        clearly outnumber al-Qaeda operations. In the past five years, 
        al-Qaeda core has been responsible for only 18% of these plots. 
        78% of these plots during this period have been carried out by 
        homegrown terrorists, inspired by al-Qaeda, but with no 
        connection with any formal transnational terrorist 
        organization--evolving into a Leaderless Jihad. This survey 
        does not include the new al Shabaab threat to the West, which 
        has too recently surfaced to be included. But it stems from 
        Somalia and not Afghanistan.

           2. The dichotomy of the present policy options between 
        counter-terrorism and counter-insurgency is a false one. The 
        choice is not between counter-terrorism and counter-insurgency, 
        but between counter-terrorism and counter-terrorism plus 
        counter-insurgency. No matter what happens in Afghanistan, all 
        Western powers will continue to protect their homelands with a 
        vigorous counter-terrorism campaign against al-Qaeda, its 
        allies and its homegrown progeny. The policy option really 
        boils down to, what is the added value of counter-insurgency in 
        Afghanistan to a necessary and continuing counter-terrorism 
        strategy worldwide?

           3. The proposed counter-insurgency strategy in Afghanistan 
        is at present irrelevant to the goal of disrupting, dismantling 
        and defeating al-Qaeda, which is located in Pakistan. None of 
        the plots in the West has any connection to any Afghan 
        insurgent group, labeled under the umbrella name ``Afghan 
        Taliban,'' be it a part of Mullah Omar's Quetta Shura Taliban, 
        Jalaluddin Haqqani's Haqqani Network, or Gulbuddin Hekmatyar's 
        Hezb-e Islami. There has not been any Afghan in al-Qaeda in the 
        past twenty years because of mutual resentment between al-Qaeda 
        foreigners and Afghan locals. In the policy debate, there is an 
        insidious confusion between Afghan Taliban and transnational 
        terrorist organizations. Afghan fighters are parochial, have 
        local goals and fight locally. They do not travel abroad and 
        rarely within their own country. They are happy to kill 
        Westerners in Afghanistan, but they are not a threat to Western 
        homelands. Foreign presence is what has traditionally unified 
        the usually fractious Afghan rivals against a common enemy. 
        Their strategic interest is local, preserving their autonomy 
        from what they perceive as a predatory corrupt unjust central 
        government. They do not project to the West and do not share 
        the internationalist agenda of al-Qaeda or its allied 
        transnational terrorist organizations.

           4. The second prong of the proposed counter-insurgency 
        strategy in Afghanistan is the prevention of al-Qaeda's return 
        to Afghanistan through a military surge. The assumption is that 
        the return to power by the Taliban will automatically allow al-
        Qaeda to reconstitute in Afghanistan, complete with training 
        camps and resurgence of al-Qaeda's ability to project to the 
        West and threaten the homeland.

                  a. The possibility of Afghan insurgents winning is 
                not a sure thing. Twenty years ago, it took a far 
                better armed and far more popular insurgency more than 
                three years to take power after the complete withdrawal 
                of Soviet forces from Afghanistan. Unlike 1996, when 
                the Taliban captured Kabul, the label Taliban now 
                includes a collection of local insurgencies with some 
                attempts at coordination on a larger scale. The Taliban 
                is deeply divided and there is no evidence that it is 
                in the process of consolidating its forces for a push 
                on Kabul. Local Taliban forces can prevent foreign 
                forces from protecting the local population, through 
                their time honored tactics of ambushes and raids. 
                General McChrystal is right: the situation in the 
                countryside is grim. But this local resistance does not 
                translate into deeply divided Taliban forces being able 
                to coalesce in the near future into an offensive force 
                capable of marching on to Kabul. Command and control 
                frictions and divergent goals hamper their planning and 
                coordination of operations. They lack popular support 
                and have not demonstrated ability to project beyond 
                their immediate locality.

                  b. Taliban return to power will not mean an automatic 
                new sanctuary for al-Qaeda. First, there is no reason 
                for al-Qaeda to return to Afghanistan. It seems safer 
                in Pakistan at the moment. Indeed, al-Qaeda has so far 
                not returned to Taliban controlled areas in 
                Afghanistan. Al-Qaeda's relationship with Taliban 
                factions has never been very smooth, despite the past 
                public display of Usama bin Laden's pledge of bayat to 
                Mullah Omar. Al-Qaeda leaders seem intimately involved 
                in the Haqqani network in North Waziristan, less so 
                with Mullah Omar's Quetta Shura, and even less with 
                Gulbuddin Hekmatyar's forces. Indeed, the presence of 
                al-Qaeda in Afghanistan divided Taliban leaders before 
                their downfall. Likewise, loyalty for Taliban leader 
                Mullah Omar also divided al-Qaeda leadership. This 
                complex relationship between al-Qaeda and Afghan 
                Taliban factions opens up an opportunity for the U.S. 
                Government to mobilize its political savvy based on a 
                deep understanding of local history, culture and 
                politics to prevent the return of a significant al-
                Qaeda presence in Afghanistan.\4\
---------------------------------------------------------------------------
    \4\ See Mountstuart Elphinstone, 1815, An Account of the Kingdom of 
Caubul, and its Dependencies in Persia, Tartary, and India; Comprising 
a View of the Afghaun Nation, and a History of the Dooraunee Monarchy, 
London: Longman, Hurst, Rees, Orme, and Brown; Olaf Caroe, , 1958, The 
Pathans: 550 B.C.-A.D. 1957, Oxford: Oxford University Press; and Akbar 
Ahmed, 2004, Resistance and Control in Pakistan: Revised Edition, 
London: Routledge, for sophisticated examples of effective governance 
in the Afghan tribal areas.

                  c. Even if a triumphant Taliban invites al-Qaeda to 
                return to Afghanistan, its presence there will look 
                very similar to its presence in the FATA. Times have 
                changed. The presence of large sanctuaries in 
                Afghanistan was predicated on Western not so benign 
                neglect of the al-Qaeda funded camps there. This era is 
                gone because Western powers will no longer tolerate 
                them. There are many ways to prevent the return of al-
                Qaeda to Afghanistan besides a national counter-
                insurgency strategy. Vigilance through electronic 
                monitoring, spatial surveillance, a networks of 
                informants in contested territory, combined with the 
                nearby stationing of a small force dedicated to 
                physically eradicate any visible al-Qaeda presence in 
                Afghanistan will prevent the return of al-Qaeda in 
                Afghanistan. The proper military mission in Afghanistan 
---------------------------------------------------------------------------
                and elsewhere is sanctuary denial.


           5. Counter-terrorism is working. The escalation from a more 
        limited and focused counter-terrorism strategy to a larger 
        combined counter-terrorism and counter-insurgency strategy (in 
        a country devoid of the al-Qaeda presence!) is predicated on 
        the assumption that the terrorist threat is either stable or 
        increasing--meaning that counter-terrorism has failed. The 
        timeline graphs clearly show that the threat is fading, from 
        its high water mark of 2004. There has been no global neo-
        jihadi terrorist casualty in the United States in the past 
        eight years and none in the West in general in the past four 
        years. Of course, al-Qaeda is not dead as long as its top 
        leadership is still alive. This cannot be attributed to a loss 
        of intent from al-Qaeda and its militant rivals. From all 
        indications, including recent debriefs of terrorist wannabes 
        captured in Pakistan and the West, the respective leaders of 
        global neo-jihadi terrorism are still enthusiastically plotting 
        to hit the West and do not hesitate to proclaim their desire on 
        the Internet. Nor is this due to the counter-insurgency in 
        Afghanistan because al-Qaeda and its allies all have their 
        training facilities in Pakistan. It is due to effective 
        counter-terrorism strategy, which is on the brink of completely 
        eliminating al-Qaeda. A dead organization will not be able to 
        return to Afghanistan.

           6. The reasons for the effectiveness of the counter-
        terrorism strategy so far are multiple. First and foremost is 
        al-Qaeda's inability to grow. Unlike the pre-9/11/01 period, 
        al-Qaeda leaders have generally not incorporated new recruits 
        among its ranks. The leadership of al-Qaeda still harks back to 
        the fight against the Soviets in the 1980s. Because he has been 
        hiding full time, Osama bin Laden has not been able to appoint 
        and train a new group of top leaders and there is no evidence 
        that he trusts anyone whom he has not known from the anti-
        Soviet jihad. In the 1990s, al-Qaeda incorporated the brightest 
        and most dedicated novices who came to train in its network of 
        camps in Afghanistan. They became its cadres and trainers. In 
        the past five years, al-Qaeda has not been able for the most 
        part to incorporate new recruits among its ranks. Western 
        novices traveling to Pakistan in the hope of making contact 
        with al-Qaeda have been turned around and sent back to the West 
        to carry out terrorist operations. Meanwhile, the success of 
        the predator drone strike campaign on the Pakistani border has 
        dramatically thinned the ranks of both al-Qaeda leaders and 
        cadres. Now it appears that these strikes are also targeting 
        al-Qaeda allies with a transnational agenda.

           7. Protection of Western homeland involves an effective 
        strategy of containment of the threat in the Afghan Pakistan 
        area until it disappears for internal reasons. In the past five 
        years, al-Qaeda or its transnational allies have not been able 
        to infiltrate professional terrorists into the West, as Ramzi 
        Youself did in New York in 1993 or the GIA did in France in 
        1995. None of the plots during that time involved any full time 
        professional terrorist. This is probably due to good 
        cooperation among intelligence agencies around the world, good 
        intelligence databases and increased vigilance and security at 
        airports around the world. To carry out operations in the West, 
        these global neo-jihadi terrorist organizations are completely 
        dependent on Western volunteers coming to the Pakistani border 
        to meet terrorist groups or on inspiring young Western 
        terrorist wannabes to carry out operations on their own without 
        any guidance or training. These organizations are stuck with 
        the people traveling to the border area to meet with them, 
        mostly through chance encounters. These travelers are 
        relatively few in number, totaling in the dozens at most. The 
        emerging details from the terrorist trials and the 
        interrogations of the Westerners captured in Pakistan are quite 
        clear on this score. Terrorist organizations can no longer 
        cherry pick the best candidates as they did in the 1990s. There 
        is no al-Qaeda recruitment program: al-Qaeda and its allies are 
        totally dependent on self selected volunteers, who come to 
        Pakistan. Global neo-jiahdi terrorism also has no control over 
        the young people who wish to carry out operations in the West 
        in its names. The result is a dramatic degradation of the 
        caliber of terrorist wannabes, resulting in the decrease in 
        success of terrorist operations in the West despite the 
        increased number of attempts. Containing those who travel to 
        Pakistan for terrorist training is a counter-terrorism problem 
        and is much easier problem to solve than transforming an 
        adjacent nation through a national counter-insurgency strategy. 
        The West has been doing well in this strategy of containment 
        with Pakistan's active collaboration.

           8. The decrease of global neo-jihadi terrorism in the last 
        five years is testimony to the effectiveness of international 
        and domestic intelligence as well as good police work. The 
        timeline analysis of global neo-jihadi terrorism shows that the 
        major threat to Western homelands is al-Qaeda inspired 
        homegrown networks. Disrupting such homegrown plots has always 
        been a domestic counter-terrorism mission through domestic 
        intelligence and law enforcement. Indeed, there is a strong 
        probability that the proposed counter-insurgency military surge 
        may result in moral outrage in young Muslims in the West, who 
        would take it upon themselves to carry out terrorist operations 
        at home in response to the surge--just as the invasion in Iraq 
        resulted in a dramatic increase in terrorist operations in the 
        West. So, far from protecting the homeland, the surge may 
        actually endanger it in the short term. After going through a 
        learning process, Western law enforcement agencies, in 
        coordination with their foreign counterparts, have done an 
        effective job in protecting the homeland.

           9. In conclusion, counter-terrorism works and is doing well 
        against the global neo-jihadi terrorist threat. It consists of 
        a combination of good domestic police work, good domestic 
        intelligence, good cooperation with foreign domestic 
        intelligence agencies, good airport security, good border 
        control, keeping up the pressure on al-Qaeda and its 
        transnational allies in Pakistan through arrests and Predator 
        drone attacks, using political and economic skill to deny 
        terrorist sanctuary in Pakistan, supporting the Pakistan 
        military to dislodge foreign militants from Waziristan while 
        sealing the border on the Afghan side, and continued sanctuary 
        denial in Afghanistan. These are measures that will continue 
        regardless of what is done in Afghanistan. There is definitely 
        no necessity and very little value added for the counter-
        insurgency option, which is the most costly in terms of blood 
        and treasure, probably the least likely to succeed and may even 
        make things worse in the short run.

          10. Counter-insurgency and nation building in Afghanistan may 
        be important for regional reasons and I would be honored to 
        address these complex issues at another time. I am pleased to 
        see that the committee invited my former chief, Milton Bearden, 
        to testify on these issues last week. I had the privilege to 
        serve under him in Islamabad, where I spent almost three years 
        in personal contact with the major Afghan Mujahedin commanders 
        fighting against the Soviet Union. I stand ready to comment on 
        counter-insurgency strategy and tactics in Afghanistan based on 
        my personal experiences with important Afghan insurgents. But 
        counter-insurgency in Afghanistan has little to do with global 
        neo-jihadi terrorism and protecting the homeland.


    The Chairman. Thank you very much, Mr. Sageman.
    Mr. Bergen?

   STATEMENT OF PETER BERGEN, SENIOR RESEARCH FELLOW AND CO-
DIRECTOR, COUNTERTERRORISM STRATEGY INITIATIVE, THE NEW AMERICA 
                  FOUNDATION, WASHINGTON, D.C.

    Mr. Bergen. Thank you very much, Senator Kerry and Senator 
Lugar and other members of the committee for this invitation to 
speak today. It really is an honor and a privilege to be here.
    I guess I am going to provide something of a threat 
assessment. First of all, the threat to the United States of a 
9/11 attack is close to zero now. Al-Qaeda itself, if it got 
lucky, might be able to pull off something like the first Trade 
Center attack or maybe the Oklahoma City bombing. These would 
be second-order threats. They wouldn't change, reorient our 
entire national security policy.
    But al-Qaeda is able to kill hundreds of Americans overseas 
still. If the planes plot of the summer of 2006 had succeeded, 
seven American, Canadian, and British airliners would have gone 
down. Fifteen hundred people would have been in the middle of 
the Atlantic. Mostly, it would have been Brits, Canadians, and 
Americans.
    So that is sort of a threat assessment in terms of our--the 
United States interests. What are the pressure points that are 
being put on al-Qaeda right now? al-Qaeda is slightly 
pressured. The drone attacks obviously we have heard. Half the 
leadership in the federally administered tribal areas have been 
killed.
    I do caution something about the drone attacks. You know, 
when Abu Musab al-Zarqawi was killed, the violence in Iraq 
actually went up. So they are not a sufficient policy, but 
obviously, they are quite useful.
    Second, one of the biggest and most important strategic 
shifts since 9/11 is the changing view of the Pakistani public, 
military, and government. This is seismic. If you think about 
the center of gravity of this whole war, in a sense, it is for 
the Pakistani population.
    If they believe that it is in their interest to get rid of 
the Taliban, if they believe it is in their interest to get rid 
of al-Qaeda, we are in a very different situation. Now the 
operation in Swat by the Pakistani government against the 
Pakistani Taliban was very popular in Pakistan.
    Support for al-Qaeda, support for bin Laden, support for 
suicide bombing is cratering in Pakistan. It used to be 33 
percent support in Pakistan for suicide bombings. It is now 5 
percent. So this is a very positive development.
    This situation is also mirrored in the Muslim world in 
general, where support for suicide bombing has gone down to 12 
percent in Indonesia from something like 30 percent, to 12 
percent in Jordan from something like 30 percent--in country 
after country--because al-Qaeda keeps killing Muslim civilians.
    And this gets to the four strategic weaknesses that al-
Qaeda has. It kills a lot of Muslim civilians. It doesn't have 
a positive vision of the future. If bin Laden was here 
testifying, you ask him, ``What are you trying to do?''
    He would say the restoration of the caliphate.
    Well, when the caliphate existed, it was the Ottoman 
Empire, a relatively rational group of people. But what bin 
Laden means is Taliban-style theocracies from Indonesia to 
Morocco. Most Muslims don't want to live in that kind of 
utopia.
    The third problem that these groups have is that they have 
made a world of enemies. This is never a winning strategy. You 
are supposed to add to your allies, not your enemies. But bin 
Laden and al-Qaeda have said they are opposed to pretty much 
every government in the world--Jews, Christians, Muslims who 
don't precisely share their views, the Shia, international 
media, the United Nations. The list goes on and on.
    And because they won't make the real-world political 
compromises that are necessary, they will not be able to turn 
themselves into mass political movements like Hezbollah. So 
they have major strategic problems. These are being recognized 
around the Muslim world. They are even being criticized from 
people who used to be their supporters--for instance, major 
religious clerics in Saudi Arabia, former militants who have 
come out publicly against them. So in terms of losing the war 
of ideas, they are certainly losing those.
    On the other hand, al-Qaeda's obituary has been written 
many times, and it would be premature to be writing it during 
this hearing. The group has still preserved its leadership. 
Leadership is important. If Hitler had been killed in 1944 by 
von Stauffenberg, World War II would have ended a year earlier.
    Bin Laden and Ayman al-Zawahiri may not be in operational 
control of this movement because they can't call people on the 
phone, but they don't need to because they have the global 
communications revolution. They just release a videotape or an 
audiotape.
    And on those tapes are not only commanders' intent--kill 
Westerners, kill Jews--but often specific instructions like, 
for instance, we are going to react to the Danish cartoon 
controversy. Well, about 3 months after bin Laden made that 
statement in 2008, a suicide attacker blew up the Danish 
embassy in Islamabad, and there are many other examples.
    Another factor in their longevity is al-Qaeda--and I have 
got to disagree with my friend and colleague Marc Sageman here 
a little bit. Al-Qaeda has influenced the Taliban ideologically 
and tactically to a very great degree. The reason that we are 
having an epidemic of suicide attacks and beheadings of 
hostages and IED attacks is because the Taliban sent people to 
Iraq to learn from the insurgency, and they copycatted the 
insurgency.
    And al-Qaeda and the Taliban today are far closer than they 
were before 9/11. The idea that if the Taliban were in power, 
they wouldn't bring back al-Qaeda is absurd. The whole Taliban 
project has been about protecting al-Qaeda. And if 
international forces pulled out of Afghanistan or we lowered 
our commitment, the Taliban would eventually take control of 
parts of the country and could even take it over entirely not 
because the Taliban is so strong, but because the Afghan 
government and the Afghan military right now are so weak.
    And I have 7 seconds left, and I would just like to say 
then--because I will keep the 5-minute rule--that one of the 
most common myths, by the way, about Afghanistan is that 
Afghans are resistant to foreign forces. In poll after poll 
since the fall of the Taliban, 83 percent favorable, in 2005, 
views of international forces.
    In the most recent poll, 63 percent of Afghans had a 
favorable view of the U.S. military. Can we think of a country 
in the world, other than our own, which would have this kind of 
view?
    So Afghans want us to perform. They want international 
forces. They have had a totalitarian invasion, a civil war, and 
the Taliban. Obama doesn't have to be turning Afghanistan into 
Belgium, but they do want us to get it right and they do want 
us to stay.

    [The prepared statement of Mr. Bergen follows:]

                   Prepared Statement of Peter Bergen

    Senator Kerry, Senator Lugar and other members of the committee, 
thank you for the opportunity to testify today.
    My testimony will attempt to cover the following areas: al-Qaeda's 
current threat to the United States; to American interests around the 
world, and to US allies; likely targets that al-Qaeda will attack over 
the coming years and the kinds of tactics the group is likely to employ 
in the future; the impact of US counterterrorism measures on al-Qaeda 
as well as other factors that have an impact on the group's viability; 
the current status of al-Qaeda's closest allies; and will conclude with 
some broad observations about American policy in Afghanistan, and how 
that might impact al-Qaeda in the future, as this is a matter of 
current interest to many policymakers.

             A. AL-QAEDA'S THREAT TO THE AMERICAN HOMELAND.

    Al-Qaeda's ability to attack the United States directly is 
currently low. Why? First, the American Muslim community has rejected 
the al-Qaeda ideological virus. American Muslims have instead 
overwhelmingly signed up for the ``American Dream,'' enjoying higher 
incomes and educational levels than the average. Second, when jihadist 
terrorists have attacked the United States, they have arrived from 
outside the country. The 19 hijackers of 9/11, for instance, all came 
from elsewhere, while Ramzi Yousef, the mastermind of the 1993 Trade 
Center bombing, flew to New York from Pakistan. Today's no-fly list and 
other protective measures make entering the country much more 
difficult. Third, measures like the establishment of the National 
Counterterrorism Center, where officials from different branches of 
government share information and act on terrorist threats have made us 
safer. And so, a catastrophic mass-casualty assault in the United 
States along the lines of 9/11 is no longer plausible.
    But the recent case of Najibullah Zazi, an Afghan-American resident 
of Denver Colorado, does raise some serious concerns about al-Qaeda's 
continued ability to target the United States. Unlike many of the post-
9/11 American terrorism cases, Zazi's case does not appear to have been 
informant-driven. Zazi appears to have been either the leader or a foot 
soldier in the first genuine al-Qaeda sleeper cell discovered in the 
United States in the past several years.
    Zazi travelled to Pakistan in late August 2008 where by his own 
admission he received training on explosives from al-Qaeda in the 
Pakistani tribal regions along the Afghan border. On Zazi's laptop 
computer the FBI discovered he had stored pages of handwritten notes 
about the manufacture and initiation of explosives and the components 
of various detonators and fusing systems, technical know-how he had 
picked up at one of al-Qaeda's training facilities in the tribal 
regions sometime between the late summer of 2008 and January 2009, when 
he returned to the United States.
    In the Denver area over the summer of 2009 Zazi bought at least 18 
bottles of hydrogen peroxide-based hair products and was allegedly 
planning to use the seemingly innocuous hair bleach to assemble deadly 
homemade bombs. Early last month, in a Denver motel room that he had 
rented for that purpose, Zazi laboriously mixed up batches of the 
noxious chemicals before he was arrested.
    The Zazi case is a reminder of al-Qaeda's ability to attract 
recruits who are ``clean skins'' without previous criminal records or 
known terrorist associations and who are quite familiar with the West-
Zazi's family first arrived in the United States when he was fourteen. 
And although much of the case still remains murky, Zazi appears to have 
had associates in the U.S. who traveled with him to Pakistan and may 
have been helping him to assemble large quantities of hydrogen 
peroxide. And if the government's allegations are correct and Zazi had 
managed to carry out his plans, he could have killed scores of 
Americans.
    That said, today the al-Qaeda organization no longer poses a direct 
national security threat to the United States itself, but rather poses 
a second-order threat in which the worst case scenario would be an al-
Qaeda-trained terrorist managing to pull off an attack on the scale of 
something in between the 1993 Trade Center attack, which killed six, 
and the Oklahoma City bombing of 1995, which killed 168. While this, of 
course, would be tragic, it would not constitute a mass casualty attack 
sufficiently large in scale to reorient American national security 
policy completely as the 9/11 attacks did.

    B. AL-QAEDA'S THREAT TO AMERICAN INTERESTS AND ALLIES OVERSEAS.

    The threat posed by al-Qaeda to American interests and allies 
overseas continues to be somewhat high. Despite all the pressure placed 
on al-Qaeda in Afghanistan and Pakistan since 9/11, training has 
continued in Pakistan's tribal areas and is the common link between the 
terrorist group's ``successes'' and its near-misses since then; for 
instance, the deadliest terrorist attack in British history--the four 
suicide bombings on London's transportation system on July 7, 2005, 
which killed 52 commuters--was directed by al-Qaeda from the tribal 
regions.
    The four bombs that detonated in London on what became known as 7/7 
were all hydrogen peroxide-based devices. This has become something of 
a signature of plots that have a connection to Pakistani training 
camps. Two weeks after the 7/7 attacks on July 21, 2005 there was a 
second wave of hydrogen peroxide-based bombs set off in London, this 
one organized by a cell of Somali and Eritrean men who were first-
generation immigrants to the U.K. Luckily their bombs were ineffective.
    Hydrogen peroxide-based bombs would again be the signature of a 
cell of British Pakistanis who plotted to bring down seven passenger 
jets flying to the United States and Canada from the U.K. during the 
summer of 2006. The plotters distilled hydrogen peroxide to manufacture 
liquid explosives, which they assembled in an apartment-turned-bomb 
factory in East London that they had recently purchased for the cash 
equivalent of some $200,000. The case resulted in the immediate ban of 
all carry-on liquids and gels, and rules were later put in place to 
limit the amounts of these items that travelers could bring on planes.
    The `planes plot' conspirators were arrested in August 2006 and in 
subsequent congressional testimony Lieutenant General Michael Maples, 
the head of the US Defense Intelligence Agency, said the plot was 
``directed by al-Qaeda leadership in Pakistan.'' \1\
---------------------------------------------------------------------------
    \1\ Michael Maples, ``Current and Projected National Security 
Threats to the United States,'' Statement for the record, Senate Select 
Committee on Intelligence, January 11, 2007. http://www.dia.mil/
publicaffairs.
---------------------------------------------------------------------------
    During the trial of the eight men accused in the `planes plot' the 
prosecution argued that some 1,500 passengers would have died if all 
seven planes had been brought down. The plot, which was entering its 
final stages in the summer of 2006, seemed designed to ``celebrate'' 
the upcoming fifth anniversary of 9/11 by once again targeting 
commercial aviation, a particular obsession of al-Qaeda. Most of the 
victims of the attacks would have been Americans, Britons and 
Canadians.
    The seriousness of the intent of the plotters can be seen in the 
fact that six of them made ``martyrdom'' videotapes recovered by 
British investigators. At their trial prosecutors played the video made 
by the ringleader, 25-year old Abdullah Ahmed Ali. Against a backdrop 
of a black flag adorned with flowing Arabic script and dressed in a 
Palestinian-style black-and-white checkered head scarf. Ali lectured 
into the camera, ``Sheikh Osama warned you many times to leave our 
lands or you will be destroyed. Now the time has come for you to be 
destroyed.''
    Last month, Ali and two of his co-conspirators were found guilty of 
planning to blow up the transatlantic airliners. Some of the key 
evidence against them was emails they had exchanged with their handler 
in Pakistan Rashid Rauf, a British citizen who has worked closely with 
al-Qaeda, who ordered them ``to get a move on'' with their operation in 
an email he sent them on July 25, 2006.\2\ Those emails were 
intercepted by American spy agencies which led to the arrests of Ali 
and his cell.
---------------------------------------------------------------------------
    \2\ Henry Chu and Sebastian Rotella, ``Three Britons convicted of 
plot to blow up planes,'' Los Angeles Times 8 September 2009 http://
www.latimes.com.
---------------------------------------------------------------------------
    Pakistan's tribal regions have continued to attract Westerners 
intent on inflicting jihadist mayhem against American targets, like the 
two Germans and a Turk residing in Germany who were planning to bomb 
the massive US Ramstein airbase there in 2007. Before their arrests, 
the men had obtained 1,600 pounds of industrial strength hydrogen 
peroxide, enough to make a number of large bombs.
    Today the al-Qaeda the organization continues to pose a substantial 
threat to US interests overseas and could still pull off an attack that 
would kill hundreds of Americans as was the plan during the `planes 
plot' of 2006. No Western country is more threatened by al-Qaeda than 
the United Kingdom, although a spate of arrests and successful 
prosecutions over the past four years have degraded the terrorist's 
group's capability in the UK.

       C. FACTORS PUTTING PRESSURE ON AL-QAEDA AND ALLIED GROUPS.

    Al-Qaeda is today facing a combination of circumstances that is 
putting a great deal of pressure on the organization, including ramped-
up American drone attacks in the tribal regions of Pakistan where the 
group is headquartered; far better intelligence on militants based in 
those tribal areas; increasingly negative Pakistani public and 
governmental attitudes towards militant jihadist groups based in 
Pakistan; and similar sentiments among publics and governments around 
the Muslim world in general.
1. Drone attacks.
    The relatively slow pace of drone attacks against al-Qaeda's 
leaders quickened dramatically in the waning six months of the Bush 
administration after it had become clear that the terror group was 
reconstituting itself in Pakistan's Federally Administered Tribal Areas 
(FATA).\3\
---------------------------------------------------------------------------
    \3\ This section draws on Peter Bergen and Katherine Tiedemann, 
``The Drone War,'' The New Republic, June 3, 2009. http://www.tnr.com/.
---------------------------------------------------------------------------
    Since the summer of 2008 U.S. drones have killed scores of lower-
ranking militants and at least a dozen mid-and upper-level leaders 
within al-Qaeda or the Taliban in FATA. One of them was Abu Laith Al 
Libi, who orchestrated a 2007 suicide attack targeting Vice President 
Dick Cheney while he was visiting Bagram air base in Afghanistan. Al 
Libi was then described as the number-three man in the al-Qaeda 
hierarchy, perhaps the most dangerous job in the world, given that the 
half-dozen or so men who have occupied that position have ended up dead 
or in prison.
    Other leading militants killed in the drone strikes include Abu 
Sulayman Al Jazairi, an Algerian jihadist; Abu Khabab al Masri, a WMD 
expert; Abdul Rehman, a Taliban commander in South Waziristan; Abu 
Haris, al-Qaeda's chief in Pakistan; Khalid Habib, Abu Zubair Al Masri, 
and Abdullah Azzam Al Saudi, all of whom were senior members of al-
Qaeda; Abu Jihad Al Masri, al-Qaeda's propaganda chief; and Tahir 
Yuldashev, the leader of the Islamic Movement of Uzbekistan, an 
insurgent group with long ties to al-Qaeda.
    One consistent target of the drone attacks has been the South 
Waziristan stronghold of Baitullah Mehsud, the leader of the Pakistani 
Taliban. American and Pakistani officials identify Mehsud as the 
mastermind of Benazir Bhutto's assassination in December 2007. He was 
killed in a drone strike in early August.
    None of the strikes has targeted Osama bin Laden, who seems to have 
vanished like a wraith.
    Officials in both the Bush and Obama administrations have been 
leery of discussing the highly classified drone program on the record, 
but a window into their thinking was provided by the remarks of then-
CIA director Michael Hayden on November 13, 2008, as the drone program 
was in full swing. ``By making a safe haven feel less safe, we keep al-
Qaeda guessing. We make them doubt their allies; question their 
methods, their plans, even their priorities,'' he explained. Hayden 
went on to say that the key outcome of the drone attacks was that ``we 
force them to spend more time and resources on self-preservation, and 
that distracts them, at least partially and at least for a time, from 
laying the groundwork for the next attack.'' \4\
---------------------------------------------------------------------------
    \4\ Transcript of Director's Remarks at the Atlantic Council, 
Michael Hayden, Washington, DC, November 13, 2008. https://www.cia.gov/
news-information.
---------------------------------------------------------------------------
    This strategy seems to have worked, at least in terms of limiting 
the ability of al-Qaeda and other FATA-based militant groups to plan or 
carry out attacks in the West. Since the summer of 2008 when the drone 
program was ramped up, law enforcement authorities have uncovered only 
one plot against American targets traceable back to Pakistan's tribal 
regions (the Zazi case mentioned above).
    President Obama has not only continued the ramped-up drone program 
he inherited from President Bush, he has ratcheted it up further. In 
2007, there were three drone strikes in Pakistan; in 2008, there were 
34; and, by the date of this hearing in early October 2009, the Obama 
administration has already authorized 39.
    Two officials familiar with the drone program point out that the 
number of ``spies'' al-Qaeda and the Taliban have killed has risen 
dramatically in the past year, suggesting that the militants are 
turning on themselves in an effort to root out the sources of the often 
pinpoint intelligence that has led to what those officials describe as 
the deaths of half of the top militant leaders in the FATA. This death 
rate also demonstrates that American intelligence operations have 
dramatically improved in FATA.
    One way of measuring the pain that the drone program has inflicted 
on al-Qaeda is the number of audio-and videotapes that the terrorist 
group has released through its propaganda arm, As-Sahab (``the clouds'' 
in Arabic). Al-Qaeda takes its propaganda operations seriously; bin 
Laden has observed that 90 percent of his battle is waged in the media, 
and Zawahiri has made similar comments. In 2007, As-Sahab had a banner 
year, releasing almost 100 tapes. But the number of releases dropped by 
half in 2008, indicating that the group's leaders were more concerned 
with survival than public relations. However, since the beginning of 
2009, al-Qaeda is on track to produce a record number of tapes, 
suggesting that its media arm has moved from the FATA deeper into 
Pakistan, likely to cities such as Peshawar.
    There are three important caveats about the success of the drone 
operations: First, the Afghan-American Najibullah Zazi was still able 
to receive training on explosives from al-Qaeda in the tribal regions 
of Pakistan during the fall of 2009 after the drone program had been 
dramatically ramped up there. Second, militant organizations like al-
Qaeda are not like an organized crime family, which can be put out of 
business if most or all of the members of the family are captured or 
killed. Al-Qaeda has sustained and can continue to sustain enormous 
blows that would put other organizations out of business because the 
members of the group firmly believe that they are doing God's work and 
tactical setbacks do not matter in the short run. Third, it is highly 
unlikely that the drone program will be expanded from FATA into other 
non-tribal regions of Pakistan because of intense Pakistani opposition 
to such a move. Understanding that fact, some militants have 
undoubtedly moved out of FATA and into safer parts of Pakistan.

2. Increasingly negative Pakistani attitudes toward the militants based 
        on their territory.
    If there is a silver lining to the militant atrocities that have 
plagued Pakistan in the past several years it is the fact that the 
Pakistani public, government and military are increasingly seeing the 
jihadist militants on their territory in a hostile light. The Taliban's 
assassination of Benazir Bhutto, the country's most popular politician; 
al-Qaeda's bombing of the Marriott hotel in Islamabad; the attack on 
the visiting Sri Lankan cricket team in Lahore; the widely circulated 
video images of the Taliban flogging a 17-year-old girl; a cell phone 
video recording of militants executing a couple for supposed adultery--
each of these has provoked real revulsion among the Pakistani public, 
which is, in the main, utterly opposed to the militants.
    In fact, historians will likely record the Taliban's decision to 
move earlier this year from the Swat Valley into Buner District, only 
60 miles from Islamabad, as the tipping point that finally galvanized 
the sclerotic Pakistani state to confront the fact that the jihadist 
monster it had helped to spawn was now trying to swallow its creator.
    The subsequent military operation to evict the Taliban from Buner 
and Swat was not seen by the Pakistani public as the army acting on 
behalf of the United States as was often the case in previous such 
operations, but something that was in their own national interest. 
Support for Pakistani army operations against the Taliban in Swat 
increased from 28% two years ago to 69% today.\5\
---------------------------------------------------------------------------
    \5\ International Republic Institute, Survey of Pakistan Public 
Opinion, October 1, 2009. http://www.iri.org.
---------------------------------------------------------------------------
    In fact, arguably not since the Soviet invasion of Afghanistan in 
1979 have American strategic interests and Pakistani strategic 
interests so closely aligned. This month it looks virtually certain 
that the Pakistani military will launch an operation into Waziristan in 
FATA against the militants based there. That comes on the heels of an 
aggressive American drone campaign in the Waziristan region that 
Pakistani leaders have privately encouraged.
    Support for suicide bombing has dropped from 33% to 5% in Pakistan 
over the past several years and the number of Pakistanis who feel that 
the Taliban and al-Qaeda operating in Pakistan are a `serious problem'' 
has risen from 57% to 86% since 2007.\6\ When Baitullah Meshud--the 
Taliban leader who had unleashed his suicide bombers across Pakistan in 
the past two years--was killed two months ago in a US drone strike, the 
tone of the Pakistani media coverage was celebratory. ``Good Riddance, 
Killer Baitullah'' was the lead headline in the quality Dawn 
newspaper.\7\
---------------------------------------------------------------------------
    \6\ Juliana Menasce Horowitz, ``Declining Support for bin Laden and 
Suicide Bombing, ``Pew Global Attitudes Project, September 10, 2009. 
http://pewresearch.org.
    \7\ Ismail Khan, ``Good Riddance, Killer Baitullah,'' Dawn 8 August 
2009 http://www.dawn.com.
---------------------------------------------------------------------------
    The changing attitudes of the Pakistani public, military and 
government constitutes arguably the most significant strategic shift 
against al-Qaeda and its allies in the past several years as it will 
have a direct impact on the terrorist organization and allied groups 
that are headquartered in Pakistan. However, changing attitudes in 
Pakistan do not mean, for the moment, that the Pakistani military will 
do much to move against the Taliban groups on their territory that are 
attacking US and other NATO forces in Afghanistan such as Mullah Omar's 
Quetta shura, the Haqqani network and Gulbuddin Hekmatyar's Hezbi-
Islami.

3. Increasingly hostile attitudes towards al-Qaeda in the Muslim world 
        in general.
    Hostility to militant jihadist groups is growing sharply in much of 
the Muslim world today. This is because most of the victims of these 
groups are Muslim civilians. This has created a dawning recognition 
among Muslims that the ideological virus that unleashed September 11 
and the terrorist attacks in London and Madrid is the same virus now 
wreaking havoc in the Muslim world in countries like Pakistan and Iraq. 
It is human nature to be concerned mostly with threats that directly 
affect one's own interests and so as jihadi terrorists started to 
target the governments and civilians of Muslim countries this led to a 
hardening of attitudes against them. Until the terrorist attacks of May 
2003 in Riyadh, for instance, the Saudi government was largely in 
denial about its large scale al-Qaeda problem. There have been some 
twenty terrorist attacks since then in the Kingdom and as a result the 
Saudi government has taken aggressive steps--arresting thousands of 
suspected terrorists, killing more than a hundred, implementing an 
expansive public information campaign against them, and arresting 
preachers deemed to be encouraging militancy.
    A similar process has happened in Indonesia, the largest Muslim 
country in the world, where Jemaah Islamiyah, the al-Qaeda affiliate 
there, is more or less out of business; its leaders in jail or dead, 
and its popular legitimacy close to zero. Polling around the Muslim 
world shows also sharp drops in support for Osama bin Laden personally 
and for suicide bombings in general. Support for suicide bombings has 
dropped in Indonesia, for instance, from 26% to 13% in the past seven 
years and in Jordan from 43% to 12%.\8\
---------------------------------------------------------------------------
    \8\ Horowitz op. cit. http://pewresearch.org.
---------------------------------------------------------------------------
4. Jihadist ideologues and erstwhile militant allies have now also 
        turned against al-Qaeda.
    It's not just Muslim publics who have turned against al-Qaeda; it 
is also some of the religious scholars and militants whom the 
organization has relied upon in the past for various kinds of support. 
Around the sixth anniversary of September 11, Sheikh Salman Al Oudah, a 
leading Saudi religious scholar, addressed al-Qaeda's leader on MBC, a 
widely watched Middle East TV network: ``My brother Osama, how much 
blood has been spilt? How many innocent people, children, elderly, and 
women have been killed ... in the name of al-Qaeda? Will you be happy 
to meet God Almighty carrying the burden of these hundreds of thousands 
or millions [of victims] on your back?'' \9\
---------------------------------------------------------------------------
    \9\ Quoted in Turki Al-Saheil, ``Reaction to Salman Al Ouda's Bin 
Laden Letter,'' Asharq al-Awsat, September 18, 2007. http://
www.aawsat.com.
---------------------------------------------------------------------------
    What was noteworthy about Al Oudah's statement was that it was not 
simply a condemnation of terrorism, or even of September 11, but that 
it was a personal rebuke, which clerics in the Muslim world have shied 
away from. Al Oudah's rebuke was also significant because he is 
considered one of the fathers of the Sahwa, the fundamentalist 
awakening movement that swept through Saudi Arabia in the 1980s. His 
sermons against the U.S. military presence in Saudi Arabia following 
Saddam Hussein's 1990 invasion of Kuwait helped turn bin Laden against 
the United States. And bin Laden told CNN in 1997 that Al Oudah's 1994 
imprisonment by the Saudi regime was one of the reasons he was calling 
for attacks on U.S. targets. Al Oudah is also one of 26 Saudi clerics 
who, in 2004, handed down a religious ruling urging Iraqis to fight the 
U.S. occupation of their country. He is, in short, not someone al-Qaeda 
can paint as either an American sympathizer or a tool of the Saudi 
government.
    More doubt about al-Qaeda was planted in the Muslim world when 
Sayyid Imam Al Sharif, the ideological godfather of al-Qaeda who is 
also known as Dr. Fadl, sensationally withdrew his support in a book 
written last year from his prison cell in Cairo. Dr Fadl ruled that al-
Qaeda's bombings in Egypt, Saudi Arabia, and elsewhere were 
illegitimate and that terrorism against civilians in Western countries 
was wrong. He also took on al-Qaeda's leaders directly in an interview 
with Al Hayat newspaper describing ``bin Laden and other leaders of al-
Qaeda as ``extremely immoral.I have spoken about this in order to warn 
the youth against them, youth who are seduced by them, and don't know 
them.'' \10\
---------------------------------------------------------------------------
    \10\ This section draws on The New Republic piece by Peter Bergen 
and Paul Cruickshank, ``The Unraveling,''June 11, 2008, http://
www.newamerica.net.
---------------------------------------------------------------------------
    And leaders of the Libyan Islamic Fighting Group, which was once 
loosely aligned with al-Qaeda, have this past summer officially turned 
against the terrorist group issuing statements against al-Qaeda from 
their prison cells in Libya and their offices in London. This is the 
first time that an affiliate has withdrawn its support from al-Qaeda.

5. Al-Qaeda's four key strategic problems.
    Encoded in the DNA of apocalyptic jihadist groups like al-Qaeda are 
the seeds of their own long-term destruction: Their victims are often 
Muslim civilians; they don't offer a positive vision of the future (but 
rather the prospect of Taliban-style regimes from Morocco to 
Indonesia); they keep expanding their list of enemies, including any 
Muslim who doesn't precisely share their world view; and they seem 
incapable of becoming politically successful movements because their 
ideology prevents them from making the real-world compromises that 
would allow them to engage in genuine politics.

            A. AL-QAEDA KEEPS KILLING MUSLIMS CIVILIANS.

    This is a double whammy for al-Qaeda as the Koran forbids killing 
civilians and fellow Muslims.

            B. AL-QAEDA HAS NOT CREATED A GENUINE MASS POLITICAL 
                    MOVEMENT.

    While bin Laden enjoys some personal popularity in the Muslim world 
that does not translate into mass support for al-Qaeda in the manner 
that Hezbollah enjoys such support in Lebanon. That is not surprising--
there are no al-Qaeda social welfare services, schools, hospitals or 
clinics.

            C. AL-QAEDA'S LEADERS HAVE CONSTANTLY EXPANDED THEIR LIST 
                    OF ENEMIES.

    Al-Qaeda has said at various times that it is opposed to all Middle 
Eastern regimes; Muslims who don't share their views; the Shia; most 
Western countries; Jews and Christians; the governments of India, 
Pakistan, Afghanistan, and Russia; most news organizations; the United 
Nations; and international NGOs. It's very hard to think of a category 
of person, institution, or government that al-Qaeda does not oppose. 
Making a world of enemies is never a winning strategy.

            D. AL-QAEDA HAS NO POSITIVE VISION.

    We know what bin Laden is against, but what's he really for? If you 
asked him, he would say the restoration of the caliphate. In practice 
that means Taliban-style theocracies stretching from Indonesia to 
Morocco. A silent majority of Muslims don't want that.
    Al-Qaeda is, in short, losing the war of ideas in the Islamic 
world, although as Bruce Hoffman has pointed out, even terrorist groups 
with little popular support or legitimacy such as the Baader-Meinhof 
gang in 1970s Germany can continue to carry out frequent terror 
attacks.

           FACTORS THAT CONTINUE TO WEIGH IN AL-QAEDA'S FAVOR

1. Preservation of the group's leadership.
    The two top leaders of the organization, bin Laden and his deputy 
Ayman al Zawahiri, are still at liberty. Why does this matter? First, 
there is the matter of justice for the almost 3,000 people who died in 
the September 11 attacks and for the thousands of other victims of al-
Qaeda's attacks around the world. Second, every day that bin Laden 
remains at liberty is a propaganda victory for al-Qaeda. Third, 
although bin Laden and his deputy Ayman al Zawahiri aren't managing al-
Qaeda's operations on a daily basis, they guide the overall direction 
of the jihadist movement around the world, even while they are in 
hiding through videotapes and audiotapes that they continue to release 
on a regular basis.
    Those messages from al-Qaeda's leaders have reached untold millions 
worldwide via television, the Internet and newspapers. The tapes have 
not only instructed al-Qaeda's followers to continue to kill Westerners 
and Jews, but some also carried specific instructions that militant 
cells then acted on. In March 2008, for instance, bin Laden denounced 
the publication of cartoons of the Prophet Mohammed in a Danish 
newspaper as a ``catastrophe'' for which punishment would soon be meted 
out. Three months later, an al-Qaeda suicide attacker bombed the Danish 
Embassy in Islamabad, killing six.

2. Al-Qaeda's ideological influence on other jihadist groups is on the 
        rise in South Asia.
    This influence has been particularly marked on the Taliban on both 
sides of the Afghan/Pakistan border. The Taliban were a quite 
provincial group when they ran Afghanistan before 9/11 and many of 
their leaders opposed bin Laden's presence in their country on the 
grounds that he was interfering with their quest for recognition by the 
international community. But since the 9/11 attacks the leadership of 
the Taliban has adopted al-Qaeda's worldview and see themselves as part 
of a supposedly global jihadist movement. They have also imported 
wholesale al-Qaeda's tactics of planting roadside bombs and ordering 
suicide attacks and beheadings of hostages, which until recently were 
largely unknown in Pakistan and Afghanistan. These tactics are a key 
reason why the Taliban insurgencies have become far more effective on 
both sides of the Durand line in the past three years.
    One of the key leaders of the Afghan Taliban as it surged in 
strength in 2006 was Mullah Dadullah, a thuggish but effective 
commander who like his counterpart in Iraq, Abu Musab al Zarqawi, 
thrived on killing Shia, beheading his hostages, and media celebrity. 
In interviews with al Jazeera and CBS Dadullah conceded what was 
obvious as the violence dramatically expanded in Afghanistan: that the 
Taliban had increasingly morphed together tactically and ideologically 
with al-Qaeda. He said, ``Osama bin Laden, thank God, is alive and in 
good health. We are in contact with his top aides and sharing plans and 
operations with each other.'' \11\ Mullah Dadullah explained that bin 
Laden himself had supervised the suicide operation targeting Vice 
President Dick Cheney in Bagram Air Force base during his visit to 
Afghanistan on February 27, 2007, an attack that killed nearly two 
dozen, including an American soldier. The US military dismissed that 
claim but said that another al-Qaeda leader Abu Laith al Libi was 
behind the operation, which seemed more of a confirmation than a denial 
of al-Qaeda's role in the attack.\12\
---------------------------------------------------------------------------
    \11\ BBC News, ``Afghanistan: Taleban second coming,'' June 2, 
2006. http://news.bbc.co.uk
    \12\ Carlotta Gall, ``A mile from Cheney, Afghan bomber kills at 
least 23,'' The New York Times 28 February 2007 http://www.nytimes.com/
2007/02/28/world/asia/28cheney.html; Alisa Tang, ``Libyan blamed for 
bomb at Cheney visit,'' 3 May 2007 http://www.washingtonpost.com.
---------------------------------------------------------------------------
    And in 2008 for the first time the Taliban began planning seriously 
to attack targets in the West. According to Spanish prosecutors, the 
late leader of the Pakistani Taliban, Baitullah Mehsud dispatched a 
team of would-be suicide bombers to Barcelona in January 2008. 
Pakistani Taliban spokesman Maulvi Omar confirmed this in August in a 
videotaped interview in which he said that those suicide bombers ``were 
under pledge to Baitullah Mehsud'' and were sent because of the Spanish 
military presence in Afghanistan.\13\
---------------------------------------------------------------------------
    \13\ Anne Stenersen,''Are the Afghan Taliban involved in 
international terrorism?'' CTC Sentinel, September 2009, http://
www.ctc.usma.edu.
---------------------------------------------------------------------------
    And the Mumbai attacks of 2008 show that al-Qaeda's ideas about 
attacking Western and Jewish targets have also spread to Kashmiris 
militant groups like Lashkar-e-Taiba (LeT), that had previously focused 
only on Indian targets. On November 28, 2008 LeT burst on to the 
international stage with its multiple attacks in Mumbai on two five 
star hotels housing Westerners, a Jewish center and a train station. 
The attacks showed that LeT had learned from the al-Qaeda playbook of 
multiple simultaneous attacks on symbolic Western and Jewish targets.

3. Al-Qaeda's affiliates in the Middle East and Africa are proving 
        resilient.
    In 2008 there was a sense that al-Qaeda in Iraq was on the verge of 
defeat. The American ambassador to Iraq, Ryan Crocker said last May, 
``You are not going to hear me say that al-Qaeda is defeated, but 
they've never been closer to defeat than they are now.'' \14\ Certainly 
al-Qaeda in Iraq has lost the ability to control large swaths of the 
country and a good chunk of the Sunni population as it did in 2006, but 
the group has proven surprisingly resilient as demonstrated by the fact 
that American officials say that it pulled off the bombings in central 
Baghdad on August 19 that destroyed two Iraqi ministry buildings and 
killed more than one hundred.
---------------------------------------------------------------------------
    \14\ Andrew Kramer, ``Iraqi military extends control in northern 
city,'' 1 June 2008 http://query.nytimes.com.
---------------------------------------------------------------------------
    And al-Qaeda in Iraq (AQI) could regain a role in Iraq despite its 
much weakened state today. There are some signs that AQI is trying to 
learn from its mistake of imposing Taliban-style social policies on the 
Iraqi population. One of AQI's leaders in January 2008 issued a 
directive to his flock, ``Do not interfere in social issues such as 
head covering.and other social affairs which are against our religion 
until further notice.'' \15\ AQI could also play the nationalist card 
quite effectively in the north, especially over the disputed city of 
Kirkuk, which is claimed by both Iraq's Arabs and Kurd, after all, 
despite its largely foreign leadership, AQI is made up of mostly 
Iraqis. Also Iraqi officials believe that AQI is entering into new 
marriages of convenience with Sunni nationalist groups that only two 
years ago it was at war with.
---------------------------------------------------------------------------
    \15\ Bill Roggio, ``Al Qaeda in Iraq under pressure in Balad, 
Anbar,'' Long War Journal, Februar 10, 2008. http://
www.longwarjournal.org.
---------------------------------------------------------------------------
    Similarly al-Qaeda in the Arabian Peninsula, which has taken a 
punishing beating from the Saudi government in the past several years, 
remains capable of pulling off significant attacks. The group almost 
succeeded in killing Saudi Arabia's leading counterterrorism official 
Prince Mohammed bin Nayef in August. A Saudi government official 
characterized it as a ``miracle'' that the al-Qaeda assassin, who had 
secreted a bomb in his underwear, did not manage to kill the 
prince.\16\ And in neighboring Yemen the group has found something of a 
safe haven taking advantage of the weak government control of that 
country.
---------------------------------------------------------------------------
    \16\ Peter Bergen, ``Saudi investigation: Would-be assassin hid 
bomb in underwear,'' CNN.com, September 30 ,2009. http://www.cnn.com.
---------------------------------------------------------------------------
    In Africa, the Somali Islamist insurgent group Al Shabbab pledged 
allegiance to bin Laden last month and has recruited dozens of Somali-
American and other Muslims from the United States, including two 
Americans who have conducted suicide operations there, the first US 
citizens to undertake suicide missions anywhere. And the North African 
group al-Qaeda in the Islamic Maghreb (AQIM) has in the past two years 
since it announced its alliance with al-Qaeda conducted a wide range of 
operations including bombing the United Nations building in Algiers, 
murdering French tourists and attacking the Israeli embassy in 
Mauritania, and in May executing a British citizen in Mali who the 
group had kidnapped earlier in the year.

                 FUTURE AL-QAEDA TARGETING AND TACTICS

1. Commercial aviation
    From the so-called shoe bomber Richard Reid to the 9/11 attacks to 
the 'planes plot' of 2006 attacking commercial aviation continues to 
preoccupy al-Qaeda and its allies. In 2007 two British doctors who are 
reported to have had links to al-Qaeda in Iraq attempted to crashed a 
SUV they had set on fire into an entrance at Glasgow airport. And in 
2002 an al-Qaeda affiliate in Kenya almost succeeded in bringing down 
an Israeli passenger jet with a surface to air missile. And in 2003 a 
plane belonging to the DHL courier service was struck by a surface to 
air missile as it took off from Baghdad airport. The same year 
militants cased Riyadh airport and were planning to attack British 
Airways flights flying into Saudi Arabia. Bringing down a commercial 
jet with a missile and attacking an airport will remain important goals 
for al-Qaeda, goals that could well be realized in coming years.

2. Western economic targets, particularly hotels
    Since the 9/11 attacks, al-Qaeda and its affiliated groups have 
increasingly attacked economic and business targets. The shift in 
tactics is in part a response to the fact that the traditional pre-9/11 
targets, such as American embassies, war ships, and military bases, are 
now better defended, while so-called 'soft' economic targets are both 
ubiquitous and easier to hit.
    Al-Qaeda and its affiliated terrorist groups are also increasingly 
targeting companies that have distinctive Western brand names. In 2003, 
suicide attackers bombed the J.W. Marriott hotel in Jakarta and 
attacked it again this year. They also attacked the Ritz Carlton hotel 
in the Indonesian capital. Similarly a Marriott was bombed in Islamabad 
Pakistan in 2008. In 2002 a group of a dozen French defense contractors 
were killed as they left a Sheraton hotel in Karachi, Pakistan, which 
was heavily damaged. In October 2004 in Taba, Egyptian jihadists 
attacked a Hilton Hotel. In Amman, Jordan in November 2005, al-Qaeda in 
Iraq attacked three hotels with well known American brand names--the 
Grand Hyatt, Radisson and Days Inn.

3. Attacking Israeli/Jewish targets
    Attacking Jewish and Israeli targets is an al-Qaeda strategy that 
has only emerged strongly post-9/11. Despite bin Laden's declaration in 
February 1998 that he was creating the ``World Islamic Front against 
the Crusaders and the Jews,'' al-Qaeda only started attacking Israeli 
or Jewish targets in early 2002. Since then, al-Qaeda and its 
affiliated groups have directed a campaign against Israeli and Jewish 
targets, killing journalist Daniel Pearl in Karachi, bombing synagogues 
and Jewish centers in Tunisia, Morocco and Turkey, and attacking an 
Israeli-owned hotel in Mombasa, Kenya, which killed thirteen. As 
mentioned above, one of al-Qaeda's North African affiliates attacked 
the Israeli embassy in Mauritania in 2008.

4. American suicide bombers?
    The news that two American citizens have engaged in suicide 
operations in Somalia raises the possibility that such operations could 
also start taking place in the United States itself. To discount this 
possibility would be to ignore the lessons of the British experience. 
On April 30, 2003, two Britons of Pakistani descent walked into Mike's 
Place, a jazz club near the American Embassy in Tel Aviv, the Israeli 
capital. Once inside one of the men succeeded in detonating a bomb, 
killing himself and three bystanders, while the other man fled the 
scene. Similarly, Birmingham-born Mohammed Bilal blew himself up 
outside an army barracks in Indian-held Kashmir in December 2000, 
killing six Indian soldiers and three Kashmiri students, becoming the 
first British suicide bomber.
    Despite these suicide attacks the British security services had 
concluded after 9/11 that suicide bombings by British citizens would 
not be much of a domestic concern in the U.K. itself. Then came the 
four suicide attackers in London on July 7 2005, which ended that 
complacent attitude.
     american policy in afghanistan and what it means for al-qaeda
    Why is the Afghan-Pakistan safe haven so important to al-Qaeda? The 
answer lies in its own history. Al-Qaeda was founded in Pakistan in 
1988 by bin Laden and some one dozen other militants who had cut their 
teeth in the anti-Soviet jihad in Afghanistan. And bin Laden and 
Zawahiri have spent most of their adult lives in Afghanistan and 
Pakistan arriving in the region for the first time respectively in the 
early- and mid-1980s, so it's an area they are deeply familiar with. In 
recent years Zawahiri has even married into a local tribe. And al-
Qaeda's leaders have had close relations going back to the mid-1980s 
with key Taliban leaders based along the Afghan-Pakistan border such as 
the Haqqani family and Gulbuddin Hekmatyar.
    If the Taliban did come back to power in Afghanistan, of course 
they would give safe haven to al-Qaeda. Despite all the pressures 
military and otherwise exerted on them over the past decade, giving 
safe haven to al-Qaeda has been at the heart of the Taliban project; 
first in the five years before 9/11 when they ran Afghanistan, and 
since then in the areas of Pakistan's tribal regions that they now 
control. Taliban leader Mullah Omar was prepared to lose everything on 
the point of principle that he would not give up Osama bin Laden after 
the 9/11 attacks. And he did lose everything: after 9/11, the Taliban 
were swiftly removed from power by U.S. forces. This does not suggest a 
talent for realpolitik. Foreign policy ``realists'' often take the view 
that everyone else is also a realistic and rational as they are, but 
history does not provide much comfort in this matter.
    In a speech in August, President Obama laid out the rationale for 
stepping up the fight in Afghanistan: ``If left unchecked, the Taliban 
insurgency will mean an even larger safe haven from which al-Qaeda 
would plot to kill more Americans. So this is not only a war worth 
fighting. This is fundamental to the defense of our people.'' Obama's 
``Af-Pak'' plan is, in essence, a counter-sanctuary strategy that 
denies safe havens to the Taliban and al-Qaeda, with the overriding 
goal of making America and its allies safer.
    This is a sound policy. If U.S. forces were not in Afghanistan, the 
Taliban, with its al-Qaeda allies in tow, would seize control of the 
country's south and east and might even take it over entirely. A senior 
Afghan politician told me that the Taliban would be in Kabul within 24 
hours without the presence of international forces. This is not because 
the Taliban is so strong; generous estimates suggest it numbers no more 
than 20,000 fighters. It is because the Afghan government and the 
90,000-man Afghan army are still so weak.
    The objections to an increased U.S. military commitment in South 
Asia rest on a number of flawed assumptions. The first is that Afghans 
always treat foreign forces as antibodies. In fact, poll after poll 
since the fall of the Taliban has found that a majority of Afghans have 
a favorable view of the international forces in their country. A BBC/
ABC News poll conducted this year, for instance, showed that 63% of 
Afghans have a favorable view of the U.S. military.\17\ To those who 
say you can't trust polls taken in Afghanistan, it's worth noting that 
the same type of poll consistently finds neighboring Pakistan to be one 
of the most anti-American countries in the world.
---------------------------------------------------------------------------
    \17\ BBC/ABC polling, February 2009, http://news.bbc.co.uk.
---------------------------------------------------------------------------
    Another common criticism is that Afghanistan is a cobbled-together 
agglomeration of warring tribes and ethnic factions that is not 
amenable to anything approaching nation-building. In fact, the first 
Afghan state emerged with the Durrani Empire in 1747, making it a 
nation older than the U.S. Afghans lack no sense of nationhood; rather, 
they have always been ruled by a weak central state.
    A third critique is that Afghanistan is simply too violent for 
anything constituting success to happen there. This is highly 
misleading. While violence is on the rise, it is nothing on the scale 
of what occurred during the Iraq war--or even what happened in U.S. 
cities as recently as 1991, when an American was statistically more 
likely to be killed than an Afghan civilian is to die in the war.\18\ 
Finally, critics of greater U.S. involvement suggest that there is no 
realistic model for a successful end state in Afghanistan. In fact, 
there is a good one relatively close at hand: Afghanistan as it was in 
the 1970s, a country at peace internally and with its neighbors, whose 
towering mountains and exotic peoples drew tourists from around the 
world.
---------------------------------------------------------------------------
    \18\ U.S. Department of Justice, http://www.ojp.usdoj.gov; 
``Afghanistan: Annual report on protection of civilians in armed 
conflict, 2008,'' United Nations Assistance Mission to Afghanistan, 
Jabuary 2009. http://www.reliefweb.int.
---------------------------------------------------------------------------
    These flawed assumptions underlie the misguided argument that the 
war in Afghanistan is unwinnable. Some voices have begun to advocate a 
much smaller mission in Afghanistan, fewer troops and a decapitation 
strategy aimed at militant leaders carried out by special forces and 
drone attacks. Superficially, this sounds reasonable. But it has a 
back-to-the-future flavor because it is more or less the exact same 
policy that the Bush Administration followed in the first years of the 
occupation: a light footprint of several thousand U.S. soldiers who 
were confined to counterterrorism missions. That approach helped foster 
the resurgence of the Taliban, which continues to receive material 
support from elements in Pakistan. If a pared-down counterterrorism 
strategy works no better the second time around, will the United States 
have to invade Afghanistan all over again in the event of a spectacular 
Taliban comeback?
    Having overthrown the ruling government in 2001, the U.S. has an 
obligation to leave to Afghans a country that is somewhat stable. And a 
stabilized Afghanistan is a necessary precondition for a peaceful South 
Asia, which is today the epicenter of global terrorism and the most 
likely setting of a nuclear war. Obamas `Af-Pak' plan has a real chance 
to achieve a stable Afghanistan if it is given some time to work.\19\
---------------------------------------------------------------------------
    \19\ This section draws on Peter Bergen's piece in TIME magazine, 
``Give it time,'' October 5, 2009. http://www.time.com.


    The Chairman. Well, very provocative by all of you, very 
thoughtful, and there is a lot of experience at this table. Mr. 
Bergen, you have written extensively on it, and others of you 
have been on the ground and understand this.
    So help us dig into this now.
    Mr. Bergen, you and Mr. Grenier have both sort of made some 
conclusions about the Taliban. This is pretty essential to the 
judgments that we are trying to make here because the 
underlying assumptions are--I mean, if the Taliban are X or Y 
or al-Qaeda is X or Y, maybe we have to do something, but if 
they are not, maybe we don't. And so, we want to try to 
understand that.
    Mr. Grenier, you have made a couple of statements here 
about al-Qaeda in Afghanistan. Now the President`` strategy is 
to disrupt, dismantle, and defeat al-Qaeda in Afghanistan. That 
is sort of the first part of the strategy. Is it a fair 
judgment to say that that has happened, that has been 
accomplished?
    Mr. Grenier. Mr. Chairman, I don't think that it has been 
accomplished in a sustainable way. Yes, they--
    The Chairman. I want to get to that. Is it you said in your 
testimony al-Qaeda is not really in Afghanistan.
    Mr. Grenier. That is right.
    The Chairman. So in terms of in Afghanistan, they have been 
disrupted and dismantled and defeated. They are not in 
Afghanistan. Correct?
    Mr. Grenier. That is true.
    The Chairman. They are an influence maybe there, but they 
are not there?
    Mr. Grenier. That is substantially true.
    The Chairman. Mr. Bergen, do you agree with that?
    Mr. Bergen. al-Qaeda is a force multiplier. It is like 
having U.S. special forces. So even General Jones, the national 
security adviser, said there were 100 members of al-Qaeda in 
Afghanistan right now. Those are the people who are helping 
with the IEDs. Those are the people helping with the training. 
Those are the people with the experience.
    So while the number may be small, and al-Qaeda has always 
been a small organization, just fixating on the numbers isn't 
very helpful because it is about their influence ideologically 
and tactically that is important.
    The Chairman. Well, let us pursue that. From a larger 
strategic interest of the United States or how do we protect 
the interests of the United States, the larger piece goes to 
the next step, isn't it, Mr. Grenier, which is you don't want 
them coming back to have a sanctuary where they can plot at 
will against the United States?
    I mean, that, it seems to me, is sort of the next tier. He 
also said in his strategy to prevent their return to either 
country. So to what--I mean, some people are alleging that the 
Taliban of today will not behave in the same way because we--as 
you said in your testimony, when the Soviets left, we departed 
the playing field.
    We actually assisted in the transfer of Osama bin Laden 
from Sudan to Afghanistan, and he was kind of given free rein. 
Here is the country, and the Taliban took over and took it down 
into the chaos. There was chaos, and they sort of took over. 
But we didn't play. We weren't there at all. Is that fair?
    Mr. Grenier. We certainly didn't have a presence on the 
ground in Afghanistan, and we certainly had no effective means 
of countering al-Qaeda or bin Laden or, for that matter, by 
extension, the Taliban from Pakistan. We would have required a 
certain amount of cooperation from the Pakistanis to do that, 
and we didn't have it.
    The Chairman. So today, as we think about the threat, is it 
your judgment that we do need to think about the legitimacy of 
a new union with the Taliban that winds up again threatening 
the United States, and therefore, we have to think about the 
Taliban as central to any considerations we have?
    Mr. Grenier. Yes. Obviously, to us, whether al-Qaeda has 
safe haven on the Afghan side of the border or the Pakistani 
side of the border is almost a matter of indifference. We don't 
want them to have safe haven for all the reasons that we can 
describe.
    With regard to their ability, al-Qaeda's ability to 
establish an effective safe haven for itself within 
Afghanistan, that very much relies--certainly with the current 
configuration of forces in Afghanistan, that very much relies 
on their relationship with the Taliban and on the future 
intentions of the Taliban.
    So I think you are absolutely right, Mr. Chairman. That is 
a critical question. You have got to get that one right.
    The Chairman. And help us to do that. I mean, you had a 
rather fascinating, amazing experience as a station chief in 
Islamabad, and it was your decisions, many of them, that 
resulted in--and advice that helped 300 operatives and the 
Northern Alliance to topple the Taliban very easily.
    Share with us sort of your judgment of what could flow now 
if you, let us say--I mean, the President made it pretty clear 
yesterday he is not planning to draw down on the current 
numbers right now, and also that there is no discussion--as 
many of us have said for some time, there has been no 
discussion of just pulling up stakes. We all understand there 
is an interest here.
    So is there, in your judgment, a more effective way to be 
able to prevent the Taliban from gaining a stronger foothold, 
from preventing al-Qaeda from creating a relationship that 
threatens us, but engaging in less kinetic kind of activity? I 
mean, do you see a different equation here?
    Mr. Grenier. Mr. Chairman, you just made reference to some 
of the decisions that we made immediately after 9/11 as we 
considered how we were going to move the campaign forward. And 
it seemed to me very strongly at the time and, in fact, it 
became one of the touchstones of our effort that we couldn't go 
in on our own. It was simply not a matter of U.S. forces 
invading Afghanistan. That we had to be in a situation where we 
were helping Afghans to be instruments of their own liberation 
from the Taliban.
    In the case of the Northern Alliance, well, that was easy. 
They were already engaged in a civil war with the Taliban. We 
knew that we had allies there. In the south, it was far more 
problematic, and we had a pretty good picture about the 
situation in southern and eastern Pashtun-dominated Afghanistan 
before 9/11. It got a lot better in the days and weeks 
immediately afterwards.
    But essentially, you had a great deal of discontent with 
the Taliban and really no real support for al-Qaeda. The 
question was finding Afghans who were brave enough to take the 
lead, who could marshal tribal forces that we could then 
support to topple the Taliban in the south as the Northern 
Alliance was doing in the north and up to Kabul.
    There were only two Pashtun warlords, if you will, who were 
willing under those circumstances to take that up. One of them 
was Hamid Karzai, currently president of the country. And the 
other one was a traditional tribal leader, his family had 
traditionally been the governors of Kandahar, by the name of 
Gul Agha Sherzai.
    And they went in. They rallied their tribal followers. And 
then, as you have pointed out, we sent in very amazingly small 
numbers of special forces operatives to work with them, and 
through them and bringing U.S. air power to bear, we were able 
to drive the Taliban out.
    Now I hasten to add that the Taliban, in terms of its 
tactics, was far less sophisticated then than it is now. They 
were almost laughably unsophisticated then. They have learned a 
great deal since.
    But it seems to me that there is a fundamental issue here. 
And that is that at the end of the day, it is Afghans who need 
to be the agents, with our help, but the agents of their own 
liberation. In any part of the country that we are talking 
about, unless we have the active support of the Afghans against 
the Taliban, we will not succeed.
    And my concern is that the Afghan army in much of the 
country is essentially a foreign army. It doesn't mean that it 
has the active opposition of much of even the Pashtun 
population, but it is not Pashtun army. And if they come in, I 
think most people will be content to do with them as they are 
essentially doing with American forces now, and that is to sit 
on the fence and wait and see who wins this thing.
    Unless we have their active cooperation, I just don't think 
that we are going to get any real traction in this campaign. 
And so, the concern that I have is that we are placing much too 
much of the emphasis currently on the buildup of an Afghan army 
which is essentially unsustainable.
    I am no expert in this area. If we were to build up an 
Afghan army, as some are talking about, in the range of over 
200,000, the people who claim to know something about this talk 
about the yearly expense of maintaining such an army in 
multiples of Afghan GDP. Not multiples of the Afghan national 
budget, multiples of GDP. It is simply not sustainable.
    The Chairman. What is sustainable?
    Mr. Grenier. What I think is sustainable is actually 
something which is far harder, and that is to work with local 
officials, local warlords, in many cases, to help empower them 
and to--and to sustain them in their efforts to build up local 
armed power.
    One of the real mistakes I think that we have made for most 
of the last 8 years is that we have made the excellent the 
enemy of the good. We have had opportunities to build up local 
leaders. We have had opportunities to build up local militias 
of the sort, frankly, that we did with great success finally in 
western Iraq. And we refused to do it because our knee-jerk 
reaction has been, no, those are the bad old days. That is what 
we want to avoid. We don't want to build up more warlords.
    Well, yes, we would love to have a coherent government 
powerful in Kabul that could sustain its benign control over 
the entire country. I just don't think it is going to happen. I 
don't think that they are capable of it. And so, I would argue 
that we need not fewer warlords, but more warlords.
    Now, there are warlords, and there are warlords. Warlords, 
as we learned during the active part of the campaign 
immediately after 9/11, can be influenced. We need to be 
working on a sustainable relationship between the national 
government in Kabul and other centers of power out in the 
provinces, and the Afghan army plays a role in all of that.
    The Chairman. The role of our troops. How do you provide 
adequate security to be able to do that, or do you not? They do 
it. Do you let the Afghans who invest, i.e., local warlord, 
provide the security?
    Mr. Grenier. Well, I think that, initially, the security 
has to come from some combination of U.S. and Afghan forces. In 
many cases, the Afghan army simply is not large enough and/or 
not willing to show up. And so, in some of those cases, I think 
the initial effort has to come from the Americans.
    But again, focusing primarily on significant population 
centers, I think that the key is to incentivize local leaders 
who are oriented in the right way to build up local militias 
that we can then support.
    The Chairman. Senator Lugar?
    Senator Lugar.Mr. Sageman, in the charts that you have 
given to us, you have indicated that at least the number of 
terrorist plots in the West has been in decline from 2004 to 
the present. In the case of the United States, there hasn't 
been an attack in 8 years. When it comes to Europe or various 
other places, the number of attacks that have been been carried 
out is in the single digits. The logic of what you are saying 
is that the al-Qaeda groups, given the cover of the Taliban, 
have not been very productive in creating terrorist attacks.
    Let me be the devil's advocate for a moment, and ask the 
following question. What if the Taliban not only continued to 
operate in the part of the country which they still are 
dominant--we are told it is 37 percent or some such amount--but 
expanded their control to an even larger area? How many more 
attacks are likely to occur as a result?
    In other words, describe to us why what we are discussing 
today, which is how we need to maintain control of the 
country--by ``we,'' I mean the allies, plus ``reliable'' Afghan 
forces--is important with regard to the prevention of terrorist 
acts throughout the world?
    Dr. Sageman. I have only focused on the homeland and 
Western homeland because that is the crux of our goal. We are 
getting a little bit too bogged down in Afghan politics here, 
and I am not really sure that we have a real vital interest 
outside of terrorism in Afghan politics. Had al-Qaeda not been 
kicked out of the Sudan in 1996, we would be talking about the 
Sudan right now, not Afghanistan.
    So let us see what is our interest in Afghanistan? And I 
completely agree with Bob here on the necessity of playing the 
tribal game. That is what everybody has done in Afghanistan 
because, frankly, you can't really control those areas.
    Right now, none of the plots that you see in the West, you 
cannot trace any one of them to Afghanistan. They all right 
now, in the last 7 years, have come from the Pakistani side of 
those people who traveled back to that area. So if let us say 
the Taliban controls part of the country, we are making a 
mistake by, first of all, using the same term for a lot of 
different groups.
    I think General McChrystal was correct in his analysis 
showing that we are not really facing one large network, but 
really three networks, namely, Gulbuddin Hekmatyar, Jalalhuddin 
Haqqani, and then the Quetta Shura of Mullah Omar. But even 
within those networks, you have tremendous rivalries, mostly 
cousins--cousins vying for leadership within that group.
    We are seeing right now in the Tehrik-e-Taliban Pakistan 
internal fight that we have witnessed in the last few weeks 
that people are getting killed in trying to vie for that 
leadership. So I don't really think that even if one of those 
groups can get some control locally that we are going to see an 
increase in plots in the West. We will see far more plots 
locally.
    We may even see plots elsewhere in the world. They actually 
have a lot of trouble, even now from Pakistan, to project to 
the West because of a fairly coordinated strategy that Bob did 
when he was the chief at CTC at the CIA. So, you know, it is a 
very difficult question.
    We should focus on the foreigners in Afghanistan. Afghans 
have not projected out of Afghanistan for a very long time, for 
about almost 250 years since the last time they sacked New 
Delhi. Otherwise, they are very much local. It is a kind of 
local jealous egalitarianism to make sure that nobody is too 
big because then it is a threat of the other guy. So you are 
going to have alliances against him to take him down. We can 
play on that. That is exactly what the British did.
    Senator Lugar. Let me interrupt for a second because you 
are now, I think, on the same track that Mr. Grenier was that 
we shouldn't necessarily play the network game. But a very 
difficult situation has become apparent when you look at our 
insistence upon the purism of democracy as opposed to the 
current nature of governance in Afghanistan. Let me just ask 
this, though.
    Part of the debate here in the Senate and elsewhere 
consists of people who say we ought to have something 
comparable to Iraq, a surge of American forces going after 
whoever. And that means a lot more soldiers, Americans on the 
ground, maybe our allies.
    And now the question I raise and you have been trying to 
respond is who would we be surging against? How would this have 
any effect whatsoever on the incidence of terrorism in the 
United States, Western Europe, or what have you?
    Dr. Sageman. Yes, let me answer that with an old Middle 
Eastern proverb. It is me and my brother against my cousin, but 
me and my cousin against a foreigner.
    So if we send 40,000 Americans, they are going to be 
foreigners, no matter what, even though they are well seen. But 
that will coalesce every local rivalry. They will put their 
local rivalry aside to actually shoot the foreigners, and then 
they will resume their own internecine fight.
    Senator Lugar. To what extent could we find the Pashtun, 
who stretch over Afghanistan and Pakistan and are at least at 
the heart of the matter, useful to our efforts? They are not 
all Taliban, certainly not very many of them are al-Qaeda. But 
at the same time, they are a group of people who, as I believe 
all three of you suggested--have been very instrumental in the 
difficulties we have faced.
    To what extent is it possible for us to find Pashtun as 
allies, and to introduce President Karzai again to some Pashtun 
who might be allies in the coalition? In other words, is it 
possible to have some effective Afghan governance as well as 
Pakistani support because of this Pashtun affiliation?
    Dr. Sageman. Well, I think we can. I mean, Afghans are for 
rent. You can't buy them, but you can rent them. Because you do 
flip-flop very often. Am I wrong?
    Mr. Grenier. No, that certainly, of course, was my 
experience.
    Dr. Sageman. Well, and so you have to really have a local 
expert, a real expert on the internal dynamic, and that means 
posting people there for years to really acquire this type of 
expertise, to really know the people, to really understand how 
to play that game. Most political agents under the British were 
in the British civil service for about 30 years. They knew 
those guys very well. We don't have any equivalent right now in 
our country to be able to do that, and sending troops with 
weapons just will unify everybody against those troops, 
unfortunately.
    Senator Lugar. Thank you very much.
    The Chairman. Thank you, Senator Lugar.
    Senator Feingold?
    Senator Feingold. Thank you, Mr. Chairman.
    I want to commend you again on what has turned out to be 
one of the most thorough series of hearings this committee has 
held since I have had the opportunity to serve on the 
committee, which is 17 years.
    The key question we face in this region is how do we 
disrupt and dismantle the al-Qaeda network without further 
destabilizing the region in the process? And while I certainly 
supported the decision to go to war in Afghanistan, I am 
concerned that our military-centric approach in Afghanistan has 
had a counterproductive effect of mobilizing militants in the 
region, many of whom do not share al-Qaeda's international 
terrorist agenda. And I think Dr. Sageman's remarks just 
reinforce that.
    Rather than finding ways to divide them from al-Qaeda, I 
think our current approach may be driving them together. So one 
option we should certainly be considering is whether simply 
stating the obvious, that we don't plan to stay in Afghanistan 
forever, would help divide those with local agendas from al-
Qaeda.
    This does not mean that we should set a firm deadline or 
leave tomorrow. That is the distortion that is always placed on 
the end of any attempt to suggest that maybe this shouldn't be 
an eternal operation. It is simply a statement designed to 
assuage fears that all we are offering the Afghan people is a 
state of perpetual war.
    And, Dr. Sageman, do you believe that completely denying 
al-Qaeda access to Afghanistan is an achievable objective? Does 
the current debate and focus on this goal in Afghanistan 
distract us from a broader goal, which is relentlessly pursuing 
al-Qaeda and its affiliates globally and ensuring that they 
cannot conduct training and plotting in Afghanistan and 
elsewhere?
    Dr. Sageman. I agree with Peter on this one that until you 
eliminate the top leadership of al-Qaeda--
    The Chairman. Is your mike on?
    Dr. Sageman. Oh, I am sorry. Until you eliminate the top 
leadership of al-Qaeda, it is still a threat. But however, 
having said that, right now, as I said, they are in Pakistan. 
And even if they return to Afghanistan, I think they will 
return in the same way they are now in Pakistan--in hiding. 
They don't really want to be targets for either our drones, 
missiles, or special forces units going there to eliminate 
them.
    So the type of threat--things have changed. It is not going 
to be the type of training camps, huge training camps that we 
saw in the 1990s. Right now, what we see, even in the few plots 
that are projected to the West, are really small, rented 
houses, half a dozen people who get a few days' training, and 
they are not as well trained as the previous guys in 1990s. So 
you are talking about a very different threat.
    So even if they do come back to Afghanistan, and I am not 
sure that it is absolutely possible to prevent them from coming 
back, if they have--whether it is Taliban or not, whatever we 
call them, if they have friendly tribal leaders who are willing 
to not so much welcome them, but hide them, their threat and 
their ability to project is still not going to be what it was 
in the 1990s because of the counterterrorist measures that we 
have worldwide, namely, good airport security, good 
coordination with the Pakistanis, good coordination around the 
world, or even stopping them in Istanbul when they change 
planes. There is no direct plane from Afghanistan to the United 
States right now.
    Senator Feingold. Well, Doctor, I think it is a very wise 
remark, and it really helps advance the debate because all we 
get is a simplistic notion if we don't stay in Afghanistan for 
very long term, Taliban or the al-Qaeda will be right back. 
Well, what does ``right back'' mean?
    And you are starting to truly address that in a substantive 
way, and it begs the question of what happens if they go to 
Yemen? What happens if they go to Somalia? What happens if they 
stay in Pakistan?
    How can it be that an international strategy against a 
global network can be that heavily concentrated on one place, 
on the assumption that they will reconstitute themselves in a 
way that is exactly the same as that which allowed them to 
conduct the 9/11 attacks? It is far too simplistic for 
something that is that important to our national security.
    Mr. Grenier, recent polls show that despite some support 
among Afghans for U.S. troops, the majority want all foreign 
troops to leave within 2 years, and only 18 percent support an 
increase in foreign troops. What impact are these public 
attitudes likely to have on the viability of any plan that 
involves a massive open-ended foreign military presence?
    Mr. Grenier. Senator Feingold, I haven't seen those poll 
results that you are citing. But they do accord at least with 
my experience of the Afghan mentality, if one can characterize 
it that way. And in this, I agree very much with Mr. Sageman 
that there is a high degree of xenophobia that is endemic among 
Afghans, and they do tend to coalesce against what is perceived 
as an outsider.
    So I guess in the context of the question you previously 
raised, well, what about the reaction to a surge, and would a 
surge be effective? My view is that you are best advised to 
begin as you mean to go on.
    My concern is that if there is a large surge in U.S. 
troops, we would be using them to do what essentially Afghans 
must do. I am not sure that having that surge in the early 
stages would make it easier for us to bring Afghans on in the 
role that we need, and as I mentioned before, I don't think 
that that role is going to be primarily played by the Afghan 
National Army.
    But another aspect of this I think is something that, 
again, I think Dr. Sageman touched on, and that is what is a 
reasonable objective here? And tell me if I have got this 
right, but it seems to me that what he is suggesting, and what 
I would believe as well, is that the best that we can hope for 
is not a permanent elimination of safe haven or the opportunity 
for safe haven on the part of al-Qaeda, but rather, the 
elimination of uncontested safe haven, that we need to be in a 
place where we can continue to play the game, which means that 
we need to be able to do that on a sustainable basis.
    The chairman just mentioned that we have been in 
Afghanistan for we are now beginning our ninth year. I suspect 
that we need to be able to sustain the kind of effort that we 
are talking about probably for another 10. It is very, very 
difficult to say.
    But again, I think, therefore, that needs to be a 
sustainable effort. What we are currently doing, I believe, is 
not sustainable either by us or by the Afghans.
    Senator Feingold. Thanks so much. Thank you.
    The Chairman. Thank you very much, Senator Feingold.
    Thank you for your comments.
    Before I recognize Senator Risch, and then, obviously, we 
will just keep going, Senator Lugar and I need to go and 
receive the Dalai Lama. So we are going to leave the chair in 
the hands of the good Senator from New Hampshire, Senator 
Shaheen.
    If I could ask, just indulgent of one question before we 
run out of here, is there an impact on Pakistan, any kind of 
negative or positive, whatever kind of impact, as a consequence 
of an increase of troops in Afghanistan? And if you could just 
kind of really quickly, both--Mr. Grenier?
    If we increase troops in Afghanistan and there is an 
increased kind of confrontation there, is there any--I don't 
know if there is. Is there any kind of--you spent so much time 
in Pakistan, and you have a sense of it. Is there any negative 
consequence to that? Some have argued there is a 
destabilization in Pakistan or something. I just don't know.
    Mr. Grenier. Well, I think that a large increase in the 
U.S. presence in Afghanistan would not be welcomed by the 
majority of Pakistanis. I think that it would make the struggle 
seem all the more starkly one of the U.S. against Muslims as 
opposed to the U.S. supporting Afghans in their own struggle.
    Everything that Mr. Bergen stated before about popular 
Pakistani support against extremists who are targeting Pakistan 
is absolutely true. When you look at this in the context of 
Afghanistan, they see things rather differently.
    The Chairman. Okay. Thank you very much.
    And if you want to comment on that in my absence, I would 
appreciate anything.
    Senator Shaheen, do you want to take the chair?
    Senator Risch?
    Senator Risch. Dr. Sageman, your graph shows a decline in 
recent years. What--in a sentence or two, to what do you 
attribute the decrease?
    Dr. Sageman. There are many internal and external factors. 
One is that, Peter is right, the ideology of al-Qaeda is not 
attracting as many young people as before. But many young 
people go elsewhere, like in Somalia, not so much because of 
the ideology, really, it is to fight off the infidel. And so, 
by sending more troops and killing more Muslims, Westerners 
killing Muslims, may actually increase a greater flow.
    But I think that, one, the bomb in 2004 was very much a 
reaction to Iraq. And as that faded and especially when Iraq 
was not this very simple sound bite like it is Westerners 
killing Muslims, where it was very much Muslims killing Muslims 
and it became very confusing to a lot of young people, they 
became less attracted in terms of going to Iraq, and at the 
same time, they were less attracted doing things at home.
    Senator Risch. Well, can an argument be made that, in fact, 
the campaign that the United States has mounted against al-
Qaeda leadership--be it through drones, be it through assets, 
be it through whatever, direct confrontation--and successes in 
that regard, can an argument be made that that has contributed 
to this?
    Dr. Sageman. The drones, no. But I think the 
counterterrorist measures, such as airport security, stopping 
people from going to Afghanistan, arresting them in Pakistan, 
that has contributed.
    The drone campaign really started too late to really have 
an effect on these graphs. Because if you look at even the 
2008, the three plots in 2008, they were really trained in 2007 
for it, and the drone campaign really started ramping up in 
2008. I think it is contributing to eliminating future plots, 
but I don't think that it is reflected in the graph.
    Senator Risch. Thank you.
    Mr. Bergen, I don't think a person can go over there and 
travel and meet with the people and not come away with at least 
a suspicion that our view of governance is such that we will 
never be able to impose or facilitate or encourage or establish 
that type of governance in that country. Am I right or am I 
wrong on that?
    Mr. Bergen. I am suspicious of that view as a general 
proposition because we used to think that about Latin American 
countries, and we used to think that about other countries that 
have now become democracies. And the notion that is somehow 
embedded in the cultural psyche of--I am not saying that 
Jeffersonian democracy is the natural tendency in Afghanistan, 
but I think representative government, as they understand it, 
certainly is.
    The participation in that last Afghan election, it was a 70 
percent turnout. The United States hasn't had an election since 
1900 where there was a 70 percent turnout. In the most recent 
election, it was lower because of concerns about security. So--
    Senator Risch. The thing that troubled me was the lack of 
sense of nationality amongst the people. I mean, if you ask 
them ``what are you,'' the answer is Pashtun, or it is one 
thing or another. But it just doesn't seem like they have the 
nationality that a group needs in order to coalesce.
    Mr. Bergen. Again, I would mildly disagree. I mean, 
Afghanistan, as a modern state, was founded in 1747. So it is 
an older country than the United States. Afghans do have a 
sense of nationhood. What they do not have is they have never 
lived under a strong central state. So, in that sense, I agree 
with you.
    And trying to impose some sort of strong central government 
on them doesn't really make sense. Tribal identity, of course, 
is very important.
    Senator Risch. We have common ground there. For you, let me 
ask this question. One thing that we haven't touched on at all 
today is the drug situation. And when I was there, again, I 
don't see--everybody says, well, there is so much corruption, 
and they want to get rid of the drugs and what have you.
    But you know, corruption is going to exist as long as they 
depend on drugs, it seems to me. I kind of put it in terms of, 
well, all right, we are telling the mafia you can be in charge 
of drugs, but we don't want any corruption within your ranks.
    I don't see how you can stand up a government or an army or 
a police force so long as that drug influence is there. To me, 
it is just staggering the influence that that has in the entire 
Afghan society.
    Dr. Sageman. I agree. If you look at the history of 
Afghanistan, it has really been resistance to a predatory 
corrupt central government. And sorry, Peter, but they did have 
a strong central government between 1880 and 1901 under King 
Amir Abdurrahman. And he was involved every year into a large 
campaign where he slaughtered thousands and thousands of 
people.
    The problem with Afghanistan is that you don't have this 
relationship between the central government and its people. The 
central government has always relied on foreign aid, whether it 
was Russian, British, and now ours. And that is what is 
different between Afghanistan and Latin American people where 
they actually do raise taxes. They do have this type of 
relationship between people and government. That has never 
existed in Afghanistan.
    Senator Risch. Thank you, Mr. Sageman.
    Can you comment on the drug situation?
    Mr. Grenier. Yes. One thing I would point out is that in 
recent history, poppy production in Afghanistan was very nearly 
wiped out, and it was done by the Taliban in 2001.
    Now if you had asked me beforehand whether that was 
possible, I would have felt very strongly that it was not. And 
yet Mullah Omar and the Taliban and managed to do it. It was 
absolutely extraordinary.
    Now I am not saying that that would be easy to duplicate, 
and I think that there were elements of power that were 
available to the Taliban that would not be available to anyone 
with whom that we would be allied. And I agree with you that so 
long as you have this very large illicit economy, it is almost 
inconceivable to think that you can do away with corruption.
    I don't tend to see a line of causality between drug 
production and the rise of the Taliban. It seems to me that the 
issue there is who controls the turf where narcotics are being 
produced. If it is people who are allied with Hamid Karzai and 
the government in Kabul, well, then they will get the benefits. 
And if it is the Taliban, then they will manage to tax it, the 
benefits.
    These are institutions that have existed for a long, long 
time in Afghanistan. It is not like these are institutions that 
have now been taken over and are currently dominated by the 
Taliban.
    Senator Risch. Thank you. Time is up. Madam Chairman?
    Senator Shaheen. [presiding] Thank you, Senator Risch.
    Senator Menendez?
    Senator Menendez. Thank you, Madam Chairlady.
    Thank you all for your testimony.
    As I think about the President trying to make this 
decision, it seems to me that the central question is how do 
you strike at the core of al-Qaeda in a way that does 
significant damage? We love to always say we want to eliminate 
them, but that is a much more difficult proposition.
    But strike them in such a way at their core, which is 
largely within the Pakistan region, as I understand it, and how 
do you do that--how do you do that most successfully? And 
secondly, what does that mean in the context of our policy in 
Afghanistan as it relates to that central mission?
    I mean, if our central mission at the end of the day is to 
do everything we can to disrupt, to kill its leadership, to 
ensure that at the end of the day they are not a threat to the 
national security of the United States, then it seems to me all 
of your focus is how is that best achieved? Afghanistan, which 
is the topic of today`` hearing, is a part of that.
    And if I had you all in the situation room with President 
Obama and he was trying to make a decision, and I asked you 
what is it that, in fact, your recommendations would be to 
strike successfully at al-Qaeda and what that policy should be, 
what would each of you say?
    Mr. Grenier. Well, Senator, I would say that we need to be 
in a position where we can deny al-Qaeda not necessarily some 
form of safe haven--because I think that is going to be the 
task of a generation on both sides of the border--but rather, 
that we put ourselves in a position where we can deny them 
uncontested safe haven.
    I don't think that the Pakistanis are going to be able in 
the short term to exert a level of control in the tribal 
territories that will preclude al-Qaeda from being able to 
operate there. I think that with our assistance, they can make 
it problematic for al-Qaeda.
    With a wink and a nod, there are some things that perhaps 
we can do unilaterally, provided that we have a base in 
Afghanistan. And over time, they need to be drying up the pond 
within which those alligators thrive. But as I say, that is a 
long project, and it involves as much political and economic 
development as it does military action.
    The same I would say is true on the Afghan side of the 
border. We should not fool ourselves that there are policies 
that we can pursue in the near term that will solve this 
problem for us in a definitive way in either the short or the 
medium term. I think we need to be very realistic about what is 
going to be required. And if we don't think that we can sustain 
those costs, then maybe we need to rethink this entire 
enterprise.
    Senator Menendez. So it sounds like you are talking about 
constant disruption of safe haven.
    Mr. Grenier. Constant disruption and over time a diminution 
of the area in which al-Qaeda can effectively find safe haven.
    Senator Menendez. And one other question before I turn to 
the others. You have mentioned several times in your testimony 
``ungoverned spaces.'' Is this part of what you are just 
defining now? When you say ``ungoverned spaces,'' how is it 
that we best try to deal with ungoverned spaces?
    Mr. Grenier. Well, again, at the end of the day, whether we 
are talking about Afghanistan or Somalia or virtually anywhere 
else, a permanent solution to a substantial physical space, 
which is not under the effective control of a responsible 
government or, in many cases, any government at all, is a 
natural safe haven for terrorists. Not to say that all 
ungoverned spaces are safe havens for terrorists, but the safe 
havens for terrorists are all ungoverned spaces.
    And at the end of the day, we cannot permanently exert 
control over any of them. At the end of the day, it is the 
native inhabitants who have to do that, and that is what makes 
this so difficult.
    Senator Menendez. Doctor?
    Dr. Sageman. In a few days perhaps, the Pakistani army is 
going to have a fairly large sweep in south Waziristan, the 
same way they are trying to re-create the success that they had 
in Swat Valley and in Buner. This may be critical because, in a 
sense, that region has always been a huge rivalry between two 
large tribes, the Mehsud and the Waziris.
    And right now, the Mehsud tribe has been more welcoming of 
al-Qaeda and its ally, namely, the IJU and the Tehrik-e-Taliban 
Pakistan. The Tehrik-e-Taliban Pakistan is very much a Mehsud 
tribe, and all three organizations seem to have the ability to 
project outside of the area, the IJU threatening our ally 
Germany. Not so much the United States, but most German plots 
seemed to have some connection with those Uzbeki terrorists.
    So, traditionally, what happened is that when the British 
always tried to have a sweep like that, a punitive sweep, to 
thin out the enemy is what happened and that people don't 
recognize that you are applying that is a border between 
Afghanistan and Pakistan. They just go on the other side of the 
border, wait it out, and come back.
    So what we need to do is to try to seal that border to 
prevent some of the bad guys that we are trying to thin out 
from that region from taking temporary refuge to Afghanistan at 
this point. This is a critical issue that is very urgent 
because it has to be coordinated with the Pakistani campaign 
that is going to take place down there. They are not going to 
be--
    Senator Menendez. Sealing the border is a really--
    Dr. Sageman. I am sorry?
    Senator Menendez. Sealing the border in that region is an 
enormously tough challenge.
    Dr. Sageman. Absolutely.
    Senator Menendez. I mean, I don't even understand how many 
troops would be necessary to do that.
    Dr. Sageman. I think that we can get some people to 
really--I mean, through various ways to try to prevent people 
from just going and taking refuge across the border. But in 
that sense, we shouldn't really fool ourselves that once we 
thin out people, all the Pakistan army is going to maintain 
control.
    No, like anything else, it is usually a large raid. You 
thin out your enemy, and then you play the internal rivalries. 
So perhaps the cousin of the various Hakimullah Mehsud at this 
point or to then deny the return of the people who took 
temporary refuge in Afghanistan from coming back and playing 
the Waziri tribe against the Mehsud.
    I mean, again, you need some kind of push to kind of 
disrupt all of this, and then you consolidate through playing 
internal rivalries.
    Senator Menendez. Mr. Bergen?
    Mr. Bergen. I would say the following to the President. We 
have tried three approaches in Afghanistan. The first is doing 
nothing. We closed our embassy in '89. We zeroed out aid. We 
got the Taliban, and then we got al-Qaeda.
    Then in 2001, we did it on the cheap. We got the Taliban 
coming back, which had morphed together with al-Qaeda.
    Now we have a somewhat serious plan, which has a real 
chance of success, and we should give it time. And we should 
explain that we plan to be in Afghanistan--I would disagree 
with Senator Feingold on this. We should not say that there 
is--we should say that we are going to be there for a while 
because the most important thing we have to do is persuade the 
Pakistanis that it is in their interest to stop supporting the 
Afghan Taliban.
    If they feel that we are going to be there for some period 
of time, they are going to change their hedging strategy. Right 
now, they have not taken the Afghan Taliban card off the table 
because they are not convinced that we are going to be there 
for a long time.
    Senator Menendez. Thank you.
    Senator Shaheen. Senator Casey?
    Senator Casey. Thank you, Madam Chair, and thank you for 
taking over the hearing. I know everyone is busy, and we are 
grateful for you doing that.
    I want to thank all three of our witnesses for your 
appearance here and for your work on these issues. The title of 
the hearing is confronting al-Qaeda. That is the first part of 
the hearing title. But of course, our policy in Afghanistan and 
Pakistan is going to be impacted by what we discuss today.
    I really have a two-part question, and there is an obvious 
overlap. The first question I will direct at Mr. Bergen. We 
have talked a little bit about--but not a great deal--about 
what is often described on the Afghan-Pakistan border as the 
three insurgencies: QST, Quetta Shura Taliban; the Haqqani 
network; and also HIG, and their relationship to al-Qaeda. Mr. 
Bergen, looking at page 11 of your testimony, I think you made 
an important point. In your testimony, but also in the last 
part of your answer to Senator Menendez about the connection 
between al-Qaeda and the Taliban, the point you made, I am not 
sure it is believed by enough people in Washington. You say in 
the first paragraph on page 11, ``The leadership of the Taliban 
has adopted al-Qaeda's world view and sees themselves as part 
of a supposedly global jihadist movement.'' That is one 
reference. And then the second paragraph, you state in part, 
``The Taliban has increasingly morphed together tactically and 
ideologically with al-Qaeda.''
    So the general point about the Taliban's connection to al-
Qaeda--but in particular those three insurgencies--is it that 
all three of these groups are connected, or two out of the 
three connected more than the others? Or is one--I guess there 
is an implicit assumption that Haqqani--has more connections to 
al-Qaeda than the other two. Please tell us what you can about 
these connections.
    Mr. Bergen. Gulbuddin Hekmatyar, who runs Hezb-e-Islami, 
has been a close friend of bin Laden's probably since 1988 or 
1989. In the case of the Haqqanis, the relationship goes back 
to the early `80s. Haqqani himself, the senior, speaks Arabic, 
has at least one Arabic wife. His kids also speak Arabic, have 
taken over the family network.
    In the case of Mullah Omar, Mullah Omar was prepared to 
lose everything on the point of principle in not handing over 
Osama bin Laden. This doesn't suggest a sort of Kissinger-like 
aptitude for realpolitik. This is somebody who is at the heart 
of the Taliban project, has been protecting al-Qaeda, and it is 
crazy to think that somehow just because we are foreign policy 
realists doesn't mean that everybody else in the world is a 
foreign policy realist. We have learned from history that 
people behave irrationally.
    So the Taliban, if they came back to power, would bring al-
Qaeda back.
    Senator Casey. So you made a connection between all three 
insurgencies and al-Qaeda?
    Mr. Bergen. Absolutely.
    Senator Casey.  I, also, think that is an important point 
because we are hearing a lot on this subject. You know how 
Washington gets. We get pretty simplistic around here. The 
President said dismantle, disrupt, and defeat al-Qaeda, and 
people say that is a great goal, but they are not the right 
goals in Afghanistan. So let us change the policy. So I just 
wanted to establish that point.
    The second point is to Mr. Grenier--did I pronounce it 
right? Okay. The second point is about the connection between 
those three insurgencies now and the government of Pakistan or 
at least the ISI. What can you tell us about their connections 
because these connection are also part of this equation? So it 
is the same question, but just substitute the word ``Pakistan'' 
for the word ``al-Qaeda.''
    Mr. Grenier. Well--
    Senator Casey. At least for the purposes of the question.
    Mr. Grenier. The calculus for the Pakistanis, I would start 
out by saying that I absolutely agree with Peter Bergen that 
there is nothing among any element of the Taliban which 
resembles Kissingerian realpolitik. The same, however, is not 
true of the Pakistanis. The Pakistanis are, I think, working 
multiple simultaneous equations in all of this.
    I can tell you from personal experience that while after 9/
11 we had very, very close cooperation with and effective 
cooperation with the Pakistanis focusing on al-Qaeda in the 
settled parts of the country where essentially they controlled 
the turf. There was nothing that we asked them to do that they 
wouldn't do, and I think that that is still the case now.
    When it comes to tribal areas where they don't control the 
turf, then their calculus becomes much more complicated. There 
they have to make judgments between those who are--who pose 
primarily a threat to others and those who pose primarily a 
threat to themselves. The people that they are most concerned 
about are what we now refer to loosely as the Tehrik-e-Taliban 
Pakistan, the Pakistani Taliban.
    The most prominent among whom, at least until his recent 
demise, was Baitullah Mehsud. Well, they were very concerned 
about Baitullah Mehsud. They were very concerned about Nek 
Muhammad and a range of other individuals, those who were 
responsible for the infiltration of the Swat Valley and local 
areas. And to the extent that the Pakistanis think that they 
can manipulate the Gulbuddin Hekmatyars and the Haqqanis with 
whom they have relations that go back literally a couple of 
decades, as well as the Afghan Taliban with whom that they have 
had a very close relationship in the past, they are prepared to 
try to do that.
    And these individuals and these organizations, not being 
foolish, are quite willing to get into that game and try to 
manipulate it in ways that benefit themselves.
    When you add Afghanistan into the equation and the 
strategic concerns that the Pakistanis have with the government 
in Kabul, it becomes more complicated still. And one of the 
things that Peter just brought out a moment ago and which I 
don't think we have spent nearly enough time on, but which I 
think is an extremely important aspect of this entire question, 
is if there were a substantial drawdown of U.S. involvement in 
Afghanistan, such that there were essentially a recurrence of 
the civil war that pertained back when the Taliban was in 
power, essentially a Taliban-dominated Pashtun part of the 
population in civil war with the ethnic minorities that were 
formerly grouped under the Northern Alliance and are now 
disproportionately represented in the government in Kabul, the 
Pakistanis clearly would see their national interest in support 
of the Afghan Taliban. I don't think there is any question 
about that.
    They are concerned about being surrounded. They see a close 
relationship between the government in Kabul and India, and it 
literally drives them crazy. I don't think there is any 
question that they would shift policy there.
    And under those circumstances and with a diminished U.S. 
pressure on them focused on preserving our troops and stopping 
cross-border attacks on our troops, I think that it would be 
very easy for the Pakistanis to devolve to along the path of 
least resistance, if you will, and to try to strike some sort 
of separate peace at least with those elements in the tribal 
territories that don't directly threaten them. And that would 
put us overall in a strategic situation which would not be at 
all positive.
    Senator Casey. Doctor, I didn't have time. I ran out of 
time for you, but if you want to say anything or add something 
to the record that is a lot longer?
    Dr. Sageman. No, actually, I disagree with Peter. The 
Taliban and Gulbuddin Hekmatyar have not seen eye to eye. As a 
matter of fact, when the Taliban was in control of Afghanistan 
between `96 and 2001, they exiled Gulbuddin Hekmatyar to 
Tehran. He was not in Afghanistan at the time.
    Mr. Bergen. The question was about al-Qaeda's relationship 
with these groups.
    Dr. Sageman. Right. And al-Qaeda's relationship was with 
Abdul Rabb al-Rasul Sayyaf and not Gulbuddin Hekmatyar in the 
early days.
    Senator Casey. I am going to let you guys figure this out 
with the new chairwoman.
    Senator Shaheen. Thank you very much, Senator Casey.
    Just to dispel anybody`` notions, I have the least 
seniority. So I always go last. So that is why I am chairing 
the remainder of the hearing.
    And thank you all for really fascinating presentations.
    I want to see if I understand what I think you said, which 
was I think there has been general agreement that one way 
forward would be to try and engage with certain factions within 
the Afghanistan--I hesitate to call them the warlords, but I 
think that is essentially what you were saying.
    Would you also promote the notion that we can reconcile 
with certain elements of the Taliban and that that would be one 
of the ways forward?
    Mr. Grenier. Senator, a little truth in advertising here. I 
have not been in Afghanistan since 2005. And there is a lot 
about the situation on the ground that I think I understand 
imperfectly. And one of those is the real--the texture of the 
Taliban. Yes, I think as part of the shorthand, we refer to 
these three elements of the insurgency. I suspect that the 
picture on the ground, district to district, is a lot more 
complicated than that.
    I believe that it is quite possible--that the different 
elements of the Taliban in different areas have different 
motivations. I think many of them are young men who could be 
won over and who would just as soon take a paycheck from the 
local governor and serve in his militia as they would serve 
with the Taliban, or if you had more constructive engagements 
for them that benefited them, that they would pursue those 
instead.
    There are other elements of the insurgency, however, that 
are clearly ideologically oriented and that you really can't 
deal with. I suspect that on a local level, there are elements 
of the insurgency who could be won over to the other side, if 
you will. But in terms of striking some sort of a grand bargain 
with Mullah Omar that would allow him to come in and take a 
share of power in Kabul and that somehow you would reach some 
grand negotiated solution, I just don't think that is possible.
    I think that he is ideologically driven. I don't think 
that--he does not recognizable legitimacy of the government in 
Kabul, and I don't think you could ever reach that sort of an 
agreement with him.
    Senator Shaheen. But you do see the potential to engage 
with some elements of the Taliban?
    Mr. Grenier. Oh, yes.
    Senator Shaheen. Is there agreement among the rest of you 
about that?
    Dr. Sageman. Oh, absolutely. I think that we make a mistake 
in kind of labeling everybody that is not for us with the same 
name, and I completely agree with Bob that on the ground what 
you have is a collection of a lot of young--groups of young 
people who resist the central government because they are 
foreigners anyway, and those really are not ideologically 
motivated.
    I don't think we can cut a deal with Mullah Omar, but we 
certainly can take most of his followers and a huge part of his 
followers away from him.
    Senator Shaheen. Mr. Bergen?
    Mr. Bergen. I am going to take a very different tack.
    Who are the moderate Taliban? Are they the people who send 
their kids to school, their daughters to school once a month or 
once a week, as opposed to not at all? This whole concept of 
moderate Taliban I think is not a particularly very helpful 
one.
    We are now 8 years into this. The moderate Taliban who 
might have come over have already done so. The people engaged 
in the peace talks with the Afghan government are not the 
people running the insurgency, the ones that met in Saudi 
Arabia. Mullah Omar has repeatedly rejected any kind of deal. 
The Taliban either think that they are winning Afghanistan or 
at least they are not losing, which in an insurgency amounts to 
the same thing. So why would they negotiate?
    I am agreeing with Marc and also with Bob. The local guys, 
you can always do a deal with. You can buy them. You can co-opt 
them. You can pressure them, give them jobs, or whatever. But 
the people who are actually running the insurgency, the Mullah 
Omars, the Haqqanis, these are not people you can negotiate 
with, and I can say that with a great deal of confidence 
because it has already been tried.
    In Pakistan, there have been three separate major peace 
deals with the Taliban--in Waziristan in 2005, 2006, and again 
in Swat. Every time the peace deal was done with the Taliban, 
they used it as an opportunity to extend their power.
    Senator Shaheen. Well, so you talked about some of the 
liabilities of al-Qaeda now. How can we exploit those 
liabilities in a way that allows us to be successful against 
them?
    Mr. Bergen. I wouldn't do anything. I mean, there is the 
kiss of death problem the United States has in this area. This 
is happening anyway. It is happening in the Islamic world. It 
is even happening, you know, the jihadists themselves, lot of 
them are turning against al-Qaeda. So just let this process 
play out.
    Senator Shaheen. So are you arguing that we should 
withdraw?
    Mr. Bergen. From Afghanistan?
    Senator Shaheen. Yes.
    Mr. Bergen. No, I thought you were talking about the 
ideological disputes. Sorry, I thought you were talking about 
the lack of support they have in the Muslim community 
increasingly. But I don't think we should withdraw from 
Afghanistan, no.
    Senator Shaheen. Well, given then I think I understand you 
and the other panelists to be talking about some type of a 
third way that doesn't rely on a military buildup but looks at 
developing another strategy. So what would a fully resourced, 
nonmilitary-focused campaign against al-Qaeda look like?
    Mr. Bergen. In Afghanistan, for instance?
    Senator Shaheen. You could start there.
    Mr. Bergen. I was just in Helmand. There are 11,000 Marines 
in Helmand, and there are probably three American officials 
working for the Government directly, not contractors. And our 
stated policy as a counterinsurgency strategy is 80 percent 
nonmilitary, 20 percent military. Yet in practice, we are doing 
quite the opposite.
    And the President has talked about a civilian surge, which 
I think is very important, but it is an ooze right now. No one 
is surging. People are not coming. And we need to change that 
equation, I think, if we are going to be successful in 
Afghanistan.
    Senator Shaheen. I don't disagree with that, and that is 
what we have heard from other folks. But what we have also 
heard is that it is very difficult to do the civilian economic 
aid, the support, without having security to back up what is 
going on there. So how do we do a civilian surge without at the 
same time having the military to support that?
    Mr. Bergen. I agree. You have to have--I mean, security 
precedes everything else. And right now, as in terms of the 
overall Afghan strategy, the one thing we are not providing 
that everybody wants is security. And that does have an 
implication about the troop commitments.
    Senator Shaheen. Can I ask if either one of you want to 
comment on that?
    Dr. Sageman. The way you phrased the question is what would 
a strategy against al-Qaeda look like, and I think you are 
confusing al-Qaeda with the Taliban.
    Senator Shaheen. No, I am not confusing the Taliban with 
al-Qaeda. He asked me about going after al-Qaeda in 
Afghanistan. I said you could start there.
    Dr. Sageman. Well, there is no al-Qaeda in Afghanistan. It 
is mostly in Pakistan.
    Senator Shaheen. Well, right. I think you testified there 
were about 100. Intelligence officials suggest about 100 al-
Qaeda in Afghanistan.
    Dr. Sageman. Well, that is actually in dispute. What we are 
looking at the al-Qaeda, the al-Qaeda that project to the West 
because our goal is homeland security. It is really to defend 
our homeland, and the people in Afghanistan do not project 
abroad.
    There is none--I mean none of the plots in the last 7 years 
that originate in Afghanistan. They all originate in Pakistan. 
So our strategy in al-Qaeda is to eliminate it. I don't think 
that you can negotiate with them. They are beyond the pale.
    If they are al-Qaeda right now, they know very well what 
they are doing. These are really true, hard-core, hardened 
people, and but they are mostly on the Pakistan side. On the 
Afghan strategy, to try to perhaps develop the country a little 
bit more, we have to start relying on the Afghans themselves 
and not so much on American troops to protect Americans who are 
there.
    We have to almost remove ourselves and to allow in terms of 
long term, we can't make Afghans dependent on the United States 
because we are going to leave at some point. And at that point, 
they are going to be very upset, just like they were in 1989. 
You have to gradually shift it to an Afghanized, the Afghan 
strategy.
    Senator Shaheen. Well, can I just follow up with you on are 
you suggesting then that we don't need to continue a campaign 
in Afghanistan in order to address al-Qaeda?
    Dr. Sageman. That is correct.
    Senator Shaheen. And so, can you then answer my initial 
question about what that nonmilitary focused campaign against 
al-Qaeda would look like?
    Dr. Sageman. I think that a nonmilitary campaign would be 
to try to flip some of the locals who are hiding al-Qaeda and 
protecting al-Qaeda to betray them and to allow us to either 
arrest them or eliminate through other means.
    Mr. Grenier. I think that, Senator, the problem with the 
approach that was just articulated by Dr. Sageman is that while 
there may be many local leaders and tribal leaders in 
Afghanistan who would be quite willing to be flipped and who 
would like to get the resources that are potentially available 
to them from the Americans and from their own government, they 
are afraid to do that simply because they are under threat of 
the Taliban.
    The Taliban, even today in most of the Pashtun- dominated 
parts of the country, is not a popular force. They primarily 
thrive on the basis of intimidation. And therefore, while I 
think it is true that there has to be a very strong 
nonmilitary, development-focused effort as part of the overall 
strategy, security also has to be a key part of the strategy.
    And then, I think that as I mentioned before, I only know 
these days what I read in the newspapers. But I read recently 
about an area where, which I think eventually served as a 
model. It is a district just outside of Kandahar called Dand. 
And it is an area that fell within the Canadian area of 
operations.
    And what the Canadians did, one of the things that made 
Dand particularly susceptible to this approach, actually, was 
that it is dominated by the Barakzai tribe. And so, you don't 
have the mixture of competing tribes there that you do in other 
districts. There are a number of other tribes represented, but 
they are primarily Barakzai.
    Well, the Canadians went to the tribal leaders of the 
Barakzai in that district, and they said, look, we are going to 
extend you protection. Oh, and by the way, we would like for 
you to come up with economic development projects that we can 
support, which they did. And these projects went forward.
    It strengthened them in the eyes of their own people, and 
it gave a motivation to their tribal members to try to make 
sure that they protected these projects because they were 
deriving clear benefit from it. And you had local village 
defense forces that were springing up, again with the Canadians 
to back them up and support them. And a clear message was sent 
from those tribal leaders to Taliban in the district to stay 
out of our district because if you do--if you do come in, we 
will resist you.
    Now I am not saying that it is going to be easy in all 
places. But I think that, roughly speaking, is the sort of a 
model that we need going forward.
    Senator Shaheen. Thank you.
    My time is up. But I actually have a final question that I 
would like to ask each of you, and that is about the funding 
for al-Qaeda and where they are getting their funding and 
whether it would be worthwhile for us to try and pursue those 
funding streams as a way to address how they are operating?
    Mr. Bergen. Terrorism is a very cheap form of warfare. The 
London attacks cost maybe 8,000 pounds, self- finance, credit 
cards. Even 9/11 was only $500,000, very transformational event 
in the world for a relatively small amount of money.
    So I think it is a case of mirror imaging to sort of think 
that because money is important to a lot of things that we do, 
that somehow it is important to terrorists. Terrorists tend to 
be volunteers. They don't need to be paid.
    What is important on the money front is the Taliban because 
insurgencies cost money to run. You have to pay people to plant 
IEDs. You have to have to pay them money to be on the payroll. 
And so, certainly, the Taliban funding streams are something 
that we should be looking at, whether it is drugs or donations 
from the Gulf.
    Kidnappings are a very important part of this. If you 
kidnap a journalist in southern Afghanistan now, you can make 
$2 million. That is a lot of money in southern Afghanistan.
    So as far as the al-Qaeda element, I think that money is 
sort of a red herring. For the Taliban, for any insurgency, 
whether it is the insurgency in Iraq or Afghanistan, financing 
is very important.
    Senator Shaheen. Thank you.
    Do you both agree with that?
    Dr. Sageman. Yes. Yes.
    Mr. Grenier. I would as well.
    Senator Shaheen. Well, thank you all very much for your 
very insightful testimony.


    The hearing is adjourned.
    [Whereupon, at 4:33 p.m., the hearing was adjourned.]



                              ----------                              




             Additional Questions for the Record Submitted 
                    by Senator Casey to Peter Bergen

                AL-QAEDA AND ASSOCIATED MOVEMENTS (AQAM)

    Al-Qaeda has morphed into a fractured network of groups across 
Asia, the Middle East and Africa. We've seen an increase in the 
activities associated with these groups as our operations have driven 
al-Qaeda from Afghanistan and Pakistan.
    Question. What role is al-Qaeda's core leadership playing in 
supporting the associated movements we see such as those in Yemen, 
Somalia, and North Africa?

    Answer. Al-Qaeda's core leadership plays an inspirational role more 
than an operational role in these movements. However, in the cases of 
al-Qaeda in both Saudi Arabia and Yemen and also al-Qaeda in the 
Islamic Maghreb (AQIM) they operate very much in line with al-Qaeda 
Central policies; attacking, for instance, in the past two years the 
American Embassy in Yemen and the Israeli embassy in Maruitania, and in 
the case of AQIM attacking the United Nations building in Algiers.


    Question. Do any of the major associated movements pose a 
significant threat to U.S. interests?

    Answer. They pose a real threat to American Embassies, businesses, 
and Americans working in the oil business in the region.

                                 <all>

</pre></body></html>
